<html>
<title> - NEXT STEPS IN K-12 EDUCATION: EXAMINING RECENT EFFORTS TO IMPLEMENT THE EVERY STUDENT SUCCEEDS ACT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





       NEXT STEPS IN K	12 EDUCATION: EXAMINING RECENT EFFORTS TO
                IMPLEMENT THE EVERY STUDENT SUCCEEDS ACT

=======================================================================

                                6HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 23, 2016

                               __________

                           Serial No. 114-52

                               __________

  Printed for the use of the Committee on Education and the Workforce


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-458 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 23, 2016....................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
    Scott, Hon. Robert C. ``Bobby'', Ranking Member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Hall, Ms. Daria, Interim Vice President, Government Affairs 
      and Communications, The Education Trust, Washington, D.C...    64
        Prepared statement of....................................    66
    Harrelson, Ms. Cassie, Math Teacher, Aurora Public Schools, 
      Aurora, CO.................................................    59
        Prepared statement of....................................    61
    King, Hon. John B., Secretary, U.S. Department of Education, 
      Washington, D.C............................................     8
        Prepared statement of....................................    11
    Pruitt, Dr. Stephen L.,Ph.D., Commissioner of Education, 
      Kentucky Department of Education...........................    46
        Prepared statement of....................................    49
    Schuler, Dr. David R., Superintendent, Township High School 
      District 214, Arlington Heights, IL........................    73
        Prepared statement of....................................    75

Additional Submissions:
    Mr. Scott:
        Press Release............................................    92
        Letter dated June 22, 2016, to Secretary King............    95
        Letter dated June 23, 2016, to Secretary King............    97
    Questions submitted for the record by:
    Salmon, Hon. Matt, a Representative in Congress from the 
      State of Arizona..................................102,104,107,109
    Chairman Kline...............................................   104
    Messer, Hon. Luke, a Representative in Congress from the 
      State of Indiana...........................................   104
    Stefanik, Hon. Elise, a Representative in Congress from the 
      State of New York..........................................   104
    Guthrie, Hon. Brett, a Representative in Congress from the 
      State of Kentucky..........................................   107
    Response to questions submitted for the record:
        Ms. Harrelson............................................   111
        Secretary King...........................................   113
        Dr. Pruitt...............................................   116
        Dr. Schuler..............................................   121

 
                NEXT STEPS IN K-12 EDUCATION: EXAMINING
                    RECENT EFFORTS TO IMPLEMENT THE
                       EVERY STUDENT SUCCEEDS ACT

                              ----------                              


                        Thursday, June 23, 2016

                     U.S. House of Representatives,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 9:00 a.m., in Room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Foxx, Roe, Thompson, 
Walberg, Guthrie, Rokita, Byrne, Carter, Bishop, Grothman, 
Curbelo, Allen, Scott, Davis, Courtney, Bonamici, and Adams.
    Staff Present: Janelle Gardner, Coalitions and Members 
Services Coordinator; Tyler Hernandez, Deputy Communications 
Director; Amy Raaf Jones, Director of Education and Human 
Resources Policy; Nancy Locke, Chief Clerk; Dominique McKay, 
Deputy Press Secretary; Brian Newell, Communications Director; 
Krisann Pearce, General Counsel; Lauren Reddington, Deputy 
Press Secretary; Mandy Schaumburg, Education Deputy Director 
and Senior Counsel; Alissa Strawcutter, Deputy Clerk; Juliane 
Sullivan, Staff Director; Leslie Tatum, Professional Staff 
Member; Brad Thomas, Senior Education Policy Advisor; Sheariah 
Yousefi, Legislative Assistant; Tylease Alli, Minority Clerk/
Intern and Fellow Coordinator; Jacque Chevalier, Minority 
Senior Education Policy Advisor; Mishawn Freeman, Minority 
Staff Assistant; Denise Forte, Minority Staff Director; 
Christian Haines, Minority Education Policy Counsel; Brian 
Kennedy, Minority General Counsel; Julia Lamberti, Minority 
Education Policy Fellow; Alexander Payne, Minority Education 
Policy Advisor; and Michael Taylor, Minority Education Policy 
Fellow.
    Chairman Kline. A quorum being present, the Committee on 
Education and Workforce will come to order. Welcome back, Mr. 
Secretary.
    Secretary King. Thank you.
    Chairman Kline. Thank you for joining us. When we last met, 
the process for implementing the Every Student Succeeds Act was 
just getting underway. We had a healthy discussion about the 
byproducts of reform that Congress passed and is presently 
signed into law. Those reforms are designed to restore State 
and local control over K-12 schools.
    That is not just my personal view, it is a view held by 
governors, State lawmakers, teachers, parents, principals, and 
superintendents who recently wrote that ``The Every Student 
Succeeds Act is clear, education decision-making now rests with 
States and districts and the Federal role is to support and 
inform those decisions.''
    It is also the view of most honest observers as the Wall 
Street Journal editorialized, the law represents ``the largest 
evolution of Federal control to the States in the quarter 
century.''
    The reason for this hearing, and our continued oversight is 
to ensure the letter and the intent of the law are followed. 
The critical part is holding your agency accountable, Mr. 
Secretary, for the steps that are taken to implement the law.
    When you were with us in February, you said, ``You can 
trust that we will abide by the letter of the law as we move 
forward.''
    That is a strong statement and it is one of several 
commitments you have made that the Department would act 
responsibly, but actions speak louder than words. In recent 
words, we have seen troubling signs with the Department pulling 
the country in a different direction than the one Congress 
provided in the law. The first troubling sign is the rulemaking 
process itself. There are a number of concerns about the 
integrity of the negotiated rulemaking committee, including the 
makeup of the panel, a lack of rural representation, and the 
accuracy of statements made by the Department staff.
    The point of the negotiated rulemaking process is to build 
consensus among those directly affected by the law. It seems 
the Department has decided to stack the deck. The second 
troubling sign surrounds the longstanding policy that Federal 
funds are a supplement and do not supplant State and local 
resources.
    Prior to the Every Student Succeeds Act, this rule is 
applied differently depending on how many low-income students a 
school serves. Some schools face more onerous requirements than 
others. Last year, Congress decided the rule would be enforced 
equally across all schools. Now school districts must simply 
show that funds are distributed fairly, without prescribing a 
specific approach or outcome. The law explicitly prohibits the 
Secretary from interfering, yet that is precisely what you are 
proposing to do.
    What the Department is proposing would be both illegal and 
harmful to students and communities. It would impose a 
significant financial burden on States and force countless 
public school districts to change as they hire and pay their 
teachers.
    This regulatory effort is trying to achieve an end Congress 
deliberately rejected and the nonpartisan Congressional 
Research Service warrants and goes beyond ``a plain language 
reading of the statute.''
    No doubt you have good intentions, Mr. Secretary, but you 
do not have the legal authority to do this. I strongly urge you 
to abandon this flawed scheme.
    The third troubling sign is the Department's accountability 
proposal. Let me note that there are policies in this proposal 
we are pleased to see, such as how States set long-term goals 
and measure interim progress.
    But in a number of ways, we also see the Department's bad 
habit for making decisions that must be left to States. This is 
especially troubling given the law's explicit prohibitions 
against Federal interference, including how States compare 
school performance and identify schools for support.
    For years, States grappled with the rigid accountability 
system imposed by Washington. The Every Student Succeeds Act 
turns the page on that failed approach and restores these 
decisions back to States and local leaders.
    I urge you, Mr. Secretary, to adopt a final proposal that 
fully reflects the letter and spirit of the law. We are raising 
these concerns because it is vitally important for the laws 
written by Congress to be faithfully executed and, just as 
importantly, we are raising these concerns because we want to 
ensure that every child has the best chance to receive a 
quality education.
    We cannot go back to the days when the Federal Government 
dictated national education policy. It did not work then and it 
will not work now. If the Department refuses to file a letter 
as intended in law, you will prevent State leaders, like Dr. 
Pruitt from Kentucky, from doing what is right for the school 
districts. You will deny superintendents like Dr. Schuler of 
Arlington Heights, Illinois, the ability to manage schools in a 
way that meets the needs of their local communities. And you 
will make it harder for teachers like Cassie Harrelson from 
Aurora, Colorado, to serve the best interests of the students 
in the classrooms. Later, we will hear from these individuals 
because they represent the people we work to empower.
    Every child in every school deserves an excellent education 
and the only way to achieve that, though, is to restore State 
and local control. That is what the Every Student Succeeds Act 
is intended to do and we will use every tool at our disposal to 
ensure the letter and intent of the law is followed.
    With that, I will now recognize Ranking Member Bobby Scott 
for his opening remarks.
    [The information follows:]

            Prepared Statement of Hon. John Kline, Chairman 
                Committee on Education and the Workforce

    Welcome back, Secretary King, and thank you for joining us. When we 
last met, the process for implementing the Every Student Succeeds Act 
was just getting underway. We had a healthy discussion about the 
bipartisan reforms Congress passed and the president signed into law. 
Those reforms are designed to restore state and local control over K-12 
schools.
    That's not just my own personal view. It's the view held by 
governors, state lawmakers, teachers, parents, principals, and 
superintendents who recently wrote that, ``[The Every Student Succeeds 
Act] is clear: Education decision-making now rests with states and 
districts, and the federal role is to support and inform those 
decisions.'' It's also the view of most honest observers. As the Wall 
Street Journal editorialized, the law represents the ``largest 
devolution of federal control to the states in a quarter-century.''
    The reason for this hearing and our continued oversight is to 
ensure the letter and intent of the law are followed. A critical part 
of our effort is holding your agency accountable, Mr. Secretary, for 
the steps that are taken to implement the law. When you were with us in 
February, you said, ``You can trust that we will abide by the letter of 
the law as we move forward.''
    That is a strong statement, and it is one of several commitments 
you've made that the department would act responsibly. But actions 
speak louder than words. In recent months, we have seen troubling signs 
of the department pulling the country in a different direction than the 
one Congress provided in the law.
    The first troubling sign is the rulemaking process itself. There 
are a number of concerns about the integrity of the negotiated 
rulemaking committee, including the makeup of the panel, the lack of 
rural representation, and the accuracy of statements made by department 
staff. The point of the negotiated rulemaking process is to build 
consensus among those directly affected by the law, yet it seems the 
department decided to stack the deck to achieve its own preferred 
outcomes.

    The second troubling sign surrounds the long-standing policy that 
federal funds are to supplement, not supplant, state and local 
resources. Prior to the Every Student Succeeds Act, this rule was 
applied differently depending on how many low-income students a school 
served; some schools faced more onerous requirements than others. Last 
year, Congress decided the rule would be enforced equally across all 
schools. Now, school districts must simply show that funds are 
distributed fairly without prescribing a specific approach or outcome. 
The law explicitly prohibits the secretary from interfering, yet that 
is precisely what your proposal would do.
    What the department is proposing would be both illegal and harmful 
to students and communities. It would impose a significant financial 
burden on states and force countless public school districts to change 
how they hire and pay their teachers. This regulatory effort is trying 
to achieve an end Congress deliberately rejected and that the 
nonpartisan Congressional Research Service warns goes beyond ``a plain 
language reading of the statute.'' No doubt you have good intentions, 
Mr. Secretary, but you do not have the legal authority to do this. I 
strongly urge you to abandon this flawed scheme.
    The third troubling sign is the department's accountability 
proposal. Let me note that there are policies in this proposal we are 
pleased to see, such as how states set long-term goals and measure 
interim progress. But in a number of ways, we also see the department's 
bad habit for making decisions that must be left to states.
    This is especially troubling given the law's explicit prohibitions 
against federal interference, including how states compare school 
performance and identify schools for support. For years, states 
grappled with a rigid accountability system imposed by Washington. The 
Every Student Succeeds Act turns the page on that failed approach and 
restores these decisions back to state and local leaders. I urge you, 
Mr. Secretary, to adopt a final proposal that fully reflects the letter 
and spirit of the law.
    We are raising these concerns because it's vitally important for 
the laws written by Congress to be faithfully executed. And just as 
importantly, we are raising these concerns because we want to ensure 
every child has the best chance to receive a quality education. We 
cannot go back to the days when the federal government dictated 
national education policy--it didn't work then and won't work now.
    If the department refuses to follow the letter and intent of the 
law, you will prevent state leaders, like Dr. Pruitt from Kentucky, 
from doing what's right for their school districts. You will deny 
superintendents, like Dr. Schuler of Arlington Heights, Illinois, the 
ability to manage schools in a way that meets the needs of their local 
communities. And you will make it harder for teachers, like Cassie 
Harrelson from Aurora, Colorado, to serve the best interests of the 
students in their classrooms.
    Later, we will hear from these individuals because they represent 
the people we want to empower. Every child in every school deserves an 
excellent education, and the only way to achieve that goal is to 
restore state and local control. That's what the Every Student Succeeds 
Act is intended to do, and we will use every tool at our disposal to 
ensure the letter and intent of the law are followed.
    With that, I will now recognize Ranking Member Scott for his 
opening remarks.
                                 ______
                                 
    Mr. Scott. Thank you, Mr. Chairman, for calling this 
hearing to discuss the implementation of the bipartisan law we 
worked to craft and enact last year. I look forward to the 
dialogue with both Secretary King and the panel of expert 
witnesses concerning the Department's ongoing efforts to 
provide States and school districts with the clarity and 
guidance necessary to ensure effective implementation of the 
Every Student Succeeds Act.
    As I have previously stated, I am proud of our collective 
efforts to craft a strong bipartisan law that was worthy of the 
President's signature. Doing so is no small feat. However, 
passing legislation is only one step of many. Fulfilling the 
promise of the Every Student Succeeds Act rests on its 
successful implementation that honors Congress' longstanding 
intent of the Elementary and Secondary Education Act, the 
intent to support and promote and protect at all levels of 
government the right to an educational opportunity for every 
child, regardless of race, income, language status or 
disability.
    While ESSA returns much decision-making power to the State 
and local level, it is not a blank check. The Federal law 
includes important guardrails, most importantly that States and 
school districts are required to take action when students are 
not learning.
    States and districts get to decide which actions are most 
appropriate in each school's unique context, but taking some 
action is not negotiable. A robust regulatory framework is 
necessary to ensure that States and school districts are 
getting the job done and taking action and each and every 
school is required to do so by federal law.
    The regulations require States and local districts to fully 
comply with the Federal law. Getting this right is hard work, 
and the Federal Government has an important role to play.
    I wanted to thank the Department of Education under the 
leadership of then acting Secretary King for moving so quickly 
to provide feedback for and to provide necessary clarity to 
practitioners, parents, and community members through the 
proposed regulations.
    I also want to commend the Secretary and staff for their 
transparency and continued collaboration with members in this 
committee and our staff throughout the process. The Department 
has demonstrated a commitment to fulfilling its regulatory 
responsibilities critical to helping States and school 
districts move forward expeditiously.
    On this point, there is considerable agreement. Although 
some State and local stakeholder groups originally urged that 
there be no regulatory framework, those very same groups in 
combination with others on the negotiated rulemaking panel 
reached an agreement on the proposed assessment regulatory 
text.
    We thank members of that panel, including the Department, 
for working and making compromises to reach consensus on 
proposed regulations with some of the most contemptuous and 
challenging issues in the entire law. Their consensus serves as 
a powerful affirmation of the need for the clarity and 
direction that the regulations provide.
    In addition to the negotiated rulemaking process, the 
Department recently released its proposed regulatory text for 
accountability, intervention, data reporting, and consolidated 
state plan development for public commenting. Again, I want to 
thank the Secretary for moving so quickly. Many individuals and 
groups request additional regulatory clarity on these important 
issues and the Department heeded those requested as the 
Department has done in the past.
    I am sure the robust dialogue, with all stakeholders, 
including Congress, will inform revisions and improvements in 
the proposal during the 60-day comment period which closes 
August 1st.
    I look forward to hearing from today's experts on the 
specifics of the Department's proposal. And just as the Federal 
Government works to meaningfully to engage the diverse 
stakeholders to effectively implement the new law, State and 
local leaders must use the clarity provided by the Federal 
regulations to work collaboratively with all stakeholders in 
the development of new plans as the implementation moves 
forward.
    The upcoming election will usher in a new administration. 
With less than six months before that transition, Secretary 
King's time at the Department is winding down. And with this 
upcoming change in leadership, States and school districts need 
the consistency and dependability to provide regulations, 
election year or not.
    I look forward to hearing from the Secretary about his 
efforts to put in place a meaningful regulatory framework that 
empowers States and districts to fulfill the congressional 
intent and improve educational equity beyond the current 
administration. Thank you, Mr. Chairman. I yield back.
    [The information follows:]

 Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Ranking Member, 
                Committee on Education and the Workforce

    Mr. Chairman, thank you for calling this important hearing to 
discuss implementation of the bipartisan law we worked to craft and 
enact last year. I look forward to dialogue with both Secretary King 
and the panel of expert witnesses concerning the Department of 
Education's ongoing efforts to provide states and school districts with 
the clarity and guidance necessary to ensure effective implementation 
of the Every Student Succeeds Act.
    As I have stated previously, I am proud of our collective efforts 
to craft a strong bipartisan law that was worthy of the President's 
signature. Doing so was no small feat. However, passing legislation is 
only one step of many. Fulfilling the promise of the Every Student 
Succeeds Act rests in successful implementation that honors Congress' 
longstanding intent of the Elementary and Secondary Education Act; the 
intent to support, promote and protect, at all levels of government, 
the right to educational opportunity for every child, regardless of 
race, income, language status, or disability.
    While the ESSA returns much decision-making to the state and local 
level, this new law is not a blank check. Federal law includes 
important guardrails - most importantly, states and school districts 
are required to take action when students aren't learning. States and 
districts get to decide which actions are most appropriate to address 
each school's unique context, but the action is a non-negotiable.
    A robust regulatory framework is necessary to ensure that states 
and school districts are getting the job done and ACTING in each and 
every school required by federal law. Regulations empower states and 
school districts to fully comply with federal law.
    Getting this right is hard work and the federal government has an 
important role to play.
    I want to thank the Department of Education, under the leadership 
of then-Acting Secretary King, for moving so quickly to collect 
feedback from and provide needed clarity to practitioners, parents, and 
community members through proposed regulations.
    I also want to commend the Secretary and his staff for their 
transparency and continued collaboration with members of this committee 
and our staffs throughout the process. The Department's demonstrated 
commitment to fulfilling its regulatory responsibility is critical for 
helping states and school districts move forward expeditiously.
    On this point, there is considerable agreement. Although some state 
and local stakeholder groups originally urged that there be no 
regulatory framework, those very same groups - in combination with 
others on the negotiated rulemaking panel - reached an agreement on the 
proposed assessment regulatory text. I want to thank members of the 
negotiating panel, including the Department, for working - and making 
compromises - to reach consensus on proposed regulations for some of 
the most contentious and challenging issues within the entire law. 
Their consensus serves as a powerful affirmation of the need for the 
clarity and direction that regulations provide.
    In addition to the negotiated rulemaking process, the Department 
recently released its proposed regulatory text for accountability, 
intervention, data reporting, and consolidated state plan development 
for public comment. Again, I want to thank the Secretary for moving 
quickly.
    Many individuals and groups requested additional regulatory clarity 
on these important provisions, and the Department heeded those 
requests. As has been emblematic of the Department's work to-date, I am 
sure that robust dialogue with all stakeholders, including Congress, 
will inform revisions and improvements to the proposal during the 60 
day comment period, which closes on August 1. I look forward to hearing 
from today's experts on the specifics of the Department's proposal.
    Just as the federal government works to meaningfully engage with 
diverse stakeholders to effectively implement the new law, state and 
local leaders must use the clarity provided by federal regulations to 
work collaboratively with all stakeholders in developing new plans, as 
the implementation process moves forward.
    The upcoming election will usher in a new administration, and with 
less than six months left before that transition, Secretary King's time 
at the Department is winding down. With this upcoming change in 
leadership, states and school districts need the consistency and 
dependability provided by regulations, election year or not.
    I look forward to hearing from the Secretary about his efforts to 
put in place a meaningful regulatory framework that empowers states and 
districts to fulfil congressional intent and improve educational equity 
beyond the current administration.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Chairman Kline. The gentleman yields back. Pursuant to 
Committee Rule 7(c), all members will be permitted to submit 
written statements to be included into the permanent hearing 
record. Without objection, the hearing record will remain open 
for 14 days to allow such statements and other extraneous 
material evidence during the hearing you submitted for the 
additional hearing record.
    It is now my pleasure to introduce our distinguished 
witness.
    We are glad to have you here. As Mr. Scott said, the last 
time you were here, I believe you were still the acting 
Secretary, so congratulations on becoming the official 
Secretary of the Department of Education.
    Everybody here knows your background and we are delighted 
that you are here. I am going to ask you now to raise your 
right hand.
    [Witness sworn]
    Chairman Kline. Let the record reflect that Dr. King 
answered in the affirmative. Before I recognize you to give 
your testimony, let me just remind you of the lighting system. 
It will apply pretty rigorously to my colleagues, not so much 
to you. we will turn the 5-minute clock on; that is sort of a 
background reference to you. Please give your testimony as you 
see fit. It has been a long time since I gaveled down a cabinet 
Secretary for speaking too long, but if you would try to wrap 
up at a reasonable time because we are getting actually a 
surprising number of members to show up considering that the 
House adjourned and I am sure there was a race to the airport 
sometime early this morning. So I am going to make sure that 
all of my colleagues have a chance to engage in the 
conversation. Mr. Secretary?

  TESTIMONY OF THE HONORABLE JOHN B. KING, SECRETARY, UNITED 
                 STATES DEPARTMENT OF EDUCATION

    Secretary King. Thank you very much. Thank you, Chairman 
Kline, Ranking Member Scott, and members of the committee. I 
appreciate the invitation to come back before this committee 
and testify today regarding how the Department of Education is 
moving forward with the implementation of the Every Student 
Succeeds Act which the President signed into law on December 
10, 2015.
    I am grateful that thanks to the leadership of Chairman 
Kline and Ranking Member Scott and members of this committee, 
Congress acted last year to reauthorize this critical piece of 
legislation.
    Over the past 7-1/2 years, thanks to hardworking educators 
supported by families, our schools and students have made 
tremendous strides. Our high school graduation rate is at a 
record high and schools in 49 States are helping students meet 
college and career ready standards in assessing their projects.
    More States also are investing more money in helping make 
sure children are ready to succeed when they enter 
kindergarten, increasing their spending on early learning by 
1.5 billion dollars over the past 3 years and yet, so much work 
remains, far too many students from every background still 
arrive at college needing remedial classes, and black and 
Hispanic students continue to lag behind their white peers in 
achievement and graduation rates.
    The latest figures from our civil rights data collection 
illustrate in powerful and troubling ways the disparities in 
opportunity and experience for different groups of students in 
our schools.
    Just a few statistics. Students with disabilities are more 
than twice as likely as students without disabilities to be 
suspended.
    Schools with high concentrations of black and Latino 
students are less likely to offer advanced courses such as 
calculus and physics which also are critical for success in 
college.
    One out of every five high school students who are English 
language learners is chronically absent.
    These are the very children that the Elementary and 
Secondary Education Act of 1965 as most recently amended by 
ESSA was designed to protect and serve.
    The good news is that ESSA provides local communities and 
States with a pathway toward equity and excellence for all 
students as well as tools that will help them get there. Using 
the greater flexibility in ESSA, States will be able to go 
beyond test scores and mathematics and English language arts by 
adding their own indicators of school quality and progress to 
ensure a rigorous, well-rounded education for every student. We 
know that strong literacy and math skills are necessary for 
success in college, careers and life, but they are not 
sufficient.
    And importantly, a rich, rigorous, well-rounded education 
helps our children make critical connections among what they 
are learning in school, their curiosities, their passions, and 
the skills they will need to become sophisticated thinkers and 
leaders who will solve the most pressing challenges facing our 
communities, our country, and our world.
    Understanding that this requires all of us working 
together, States are expected to involve local educators, 
parents, civil rights groups, business leaders, tribal 
officials, and other stakeholders in choosing other indicators 
of quality such as decreases in chronic absenteeism or 
increases in the number of students taking and passing advanced 
classes.
    The legislation also includes critical protections and 
provides additional resources for traditionally underserved 
students, such as students of color, students from low-income 
families, students with disabilities, students learning 
English, Native American students, fostered and homeless youth, 
and migrant and seasonal farmworker children.
    States must take meaningful actions to improve schools 
where students or groups of students are struggling and high 
schools that have low graduation rates year after year, but the 
flexibility of the law also allows them to tailor these 
interventions to schools' specific needs. As with all 
legislation and policy, the quality and fidelity of the 
implementation is critical to success.
    Please allow me to update you on our progress towards 
helping the States implement this law fully and faithfully.
    The first thing we did was listen. Today, we have convened 
over 200 meetings with stakeholders across the country.
    This included dozens of meetings with educators and school 
leaders in rural, urban, and suburban communities across the 
country.
    We posted a notice seeking public comment on areas in need 
of regulation in the Federal Register and requested feedback on 
areas in need of guidance. We received hundreds of comments. In 
response, we prioritized accountability, including data 
reporting and State plans, assessments under Title I, Parts A 
and B, and Title I's requirement that Federal dollars 
supplement and not supplant State and local funds for 
education.
    As you know, this past spring, we engaged in negotiated 
rulemaking on Title I, Part A, assessment and supplement, not 
supplant, regulations. We appreciate the input we received and 
reached consensus on assessments, but not on how to enforce the 
law's supplement not supplant requirement.
    We are now considering how best to address the feedback we 
received on the latter as we develop our policy.
    Last month, we also issued our Notice of Proposed 
Rulemaking on accountability, State plans, and data reporting 
which was published in the Federal Register on May 31st for a 
60-day public comment period, concluding on August 1st. We 
encourage comment on those proposed regulations.
    Consistent with a strong civil rights legacy of the law, 
the proposed regulations ensure a focus on all students, 
including historically underserved subgroups of students, in 
accountability decisions. They also ensure that meaningful 
action is taken to improve lowest performing schools with 
families, educators, and stakeholders playing an important role 
in the process. They also ensure that educators, students, and 
families have an accurate picture of students' academic 
performance.
    In April, I announced the Department would be issuing 
nonregulatory guidance in several key areas concerning students 
in foster care, homeless students, and English learners. Each 
of these areas was raised frequently as a priority issue in our 
stakeholder outreach.
    I am happy to report that this morning, we have released 
guidance on ensuring educational stability for children in 
foster care. As you know, ESSA for the first time it includes 
protections for foster youth who largely, because of their 
mobility, lagged behind their peers academically.
    Our guidance, released jointly with the Department of 
Health and Human Services, clarifies the new statutory 
requirements regarding children in foster care, promotes 
greater collaboration between State educational agencies, local 
educational agencies, and child welfare agencies as well as 
highlighting promising examples to help guide implementation.
    We plan to issue guidance to support homeless students and 
English learners at the end of this summer or early fall.
    The Department is also working on guidance to support 
States and districts as they implement Title II, Title IV, and 
the provisions in ESSA around early learning.
    Our aim with these guidance documents would be to highlight 
examples and best practices as States and districts make use of 
new funding opportunities in the law.
    As I noted at the time, we have made incredible progress as 
a Nation over the past several years, but there is more to be 
done. ESSA is a bipartisan achievement that provides a 
statutory foundation to close our remaining gaps and address 
our persistent inequities.
    I am pleased to hear feedback from this committee today and 
look forward to continuing to work with all of you to ensure 
high-quality implementation of this law, supported by the 
Department, and that guarantees a world-class education for 
every child. Thank you, I am happy to answer your questions.
    [The statement of Secretary King follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
    
    Chairman Kline. Thank you, Mr. Secretary. I will be happy 
to start my feedback now. I partially quoted some of your 
remarks from February in my opening statement. That quote came 
in response to my request that you would commit to regulating 
consistent with the statute.
    You said in full, and I am happy to read here and make sure 
I have got it right, ``You can trust that we will abide by the 
letter of the law as we move forward to do regulations, provide 
guidance and technical assistance to States and districts, and 
our intent is to work together with you and to gather input 
from educators, from parents, and from members of this 
committee as we move forward.''
    I am concerned your proposal is not fully consistent with 
that commitment. The questions I and other members have will 
reflect those concerns.
    I want to start by asking you about the supplement, not 
supplant proposal which you discussed in your opening remarks. 
As you know, we asked the Congressional Research Service to 
review the proposal and they agreed with us that your proposal, 
if it were promulgated as a final rule, would likely be 
illegal.
    They said, and I quote, ``Based on the plain language of 
the above provisions, in conjunction with the legislative 
history and the statutory scheme as a whole, it, therefore, 
seems unlikely that Congress had intended Section 1118(b) to 
authorize the Education Department to establish regulations of 
the required Title I(a) expenditures to meet or exceed those of 
non-Title I(a) schools.''
    I would like you to respond specifically to one of those 
conclusions. CRS said the plain language of the section does 
not appear to require equalized spending and the chair proposal 
failed to justify why you believe it does. Could you explain, 
beyond the talking points we have already heard, how a plain 
reading of Section 1118(b) would require the result you have 
proposed?
    Secretary King. Sure, the historical context for supplement 
not supplant is important. That language was originally added 
to the law after the NAACP LDF report that showed that Federal 
dollars were being used to backfill State and local 
responsibilities to high-need schools, particularly those 
serving students of color. That is the history of that 
language. The language clearly must mean that the Federal 
dollars are intended to be supplemental, not to backfill State 
and local responsibilities.
    We know that there are districts where 25 to 30 percent 
more is being spent in schools serving affluent students than 
in schools a few blocks away serving low-income students.
    That is clearly inconsistent with the very words supplement 
not supplant.
    Our proposal seeks to ensure that we enforce the law as 
written, that the funds are truly supplemental, however, we 
received feedback throughout the negotiated rulemaking process, 
adjusted the proposal throughout that negotiated rulemaking 
process, have continued to receive feedback and input from 
stakeholders since the completion of the negotiated rulemaking 
sessions, and look forward to moving forward in a way that is 
responsive to the feedback and input we have received.
    Chairman Kline. Well, I thank you for the response. 
However, the point I am trying to get at is that the statute, 
the plain language of the statute, is very, very clear and it 
does not say that the Secretary is allowed to decide on his own 
what the intent of the history of this was. The language is 
very, very clear and that is what the Congressional Research 
Service said.
    Second, I want to ask one straightforward question about 
your accountability proposal. In looking at it in totality, my 
concern, you are deliberately attempting to increase the number 
of schools identified for interventions beyond what was 
intended in the statute.
    Five years from now, what number or percentage of schools 
nationwide do you anticipate will be identified for 
comprehensive and target support as a result of these 
regulatory proposals?
    Secretary King. The proposal really seeks to ensure that 
States have the opportunity to broaden their definition of 
educational excellence, to introduce additional indicators of 
performance beyond just English and math performance and 
graduation rates.
    It also creates the opportunity for States to set goals and 
targets for performance and it importantly requires that States 
and districts intervene when schools are in the bottom 5 
percent of performance, when schools are struggling with 
particular subgroup performance, and when schools have low 
graduation rates year after year. The number of schools that 
will be identified will depend on how States use that 
flexibility, but clearly a priority in the law was to ensure 
that States act meaningfully in schools that are struggling 
over their achievement gaps and that is what the regulations 
require.
    Chairman Kline. So as you pointed out, you do not know and 
that is not to be--not a surprise. How many schools would fall 
into that category?
    Presumably, the Department is doing some analysis of this 
as it goes forward and if that is so, would you please commit 
to providing that analysis to us so we can see how this is 
going to unfold? I am afraid that right now, I mean, we are 
early here and that is why I am glad you are here so we can get 
at this, it looks like there is an attempt here to increase the 
number of schools identified for interventions. And so we want 
to look at that analysis. That is not the intent of the 
statute, we need to see that number go up.
    We wrote the language very specifically. Yeah, I have asked 
and you have answered that you will give us that analysis as we 
go forward. Let me yield for questions to Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. Before I begin, I would 
like to submit for the record documents, one a statement 
released yesterday by 31 civil rights groups calling for 
stronger accountability regulations and another letter from the 
leadership of the Tri-Caucus urging the Secretary and the 
administration to fulfill its regulatory obligation and protect 
the civil rights of all students, including that supplement not 
supplant and--
    Chairman Kline. No objection.
    Mr. Scott. Thank you. And Mr. Secretary, when you propose 
regulations as a comment period, what is the purpose of the 
comment period and what happens after the comment period?
    Secretary King. The purpose is really for us to gather 
input from stakeholders. We want to hear from educators, from 
parents, from civil rights organizations, from tribal leaders, 
from business communities, from community based organizations 
that are working with young people, particularly our young 
people most at risk and we will gather that input and we will 
address it and similarly we want input from members of Congress 
and appreciate this opportunity to gather feedback.
    The ultimate regulations will reflect our attempt to 
respond to the input we have received.
    Mr. Scott. You mentioned supplement not supplant. There's 
language in Brown v. Board of Education that said that the 
opportunity of education is a right which must be made 
available to all on equal terms.
    If a locality is chronically underfunding certain schools, 
is there not an obligation to come up with some appropriate 
equitable funding outside of the ESSA?
    Secretary King. Absolutely.
    Mr. Scott. And then supplement and not supplant would mean 
that you would have to supplement over what your legal 
obligation is, is that right?
    Secretary King. That is right.
    Mr. Scott. Can you say a word about how you identified--how 
you make sure that all students in underserved schools receive 
the support that they need in light of the fact that some 
schools look like they are doing okay but subgroups are not 
performing?
    Secretary King. That is right. We have been careful in 
regulations to try to ensure that schools do not fall through 
the cracks because we do not want students to fall through the 
cracks, so the regulations give States the opportunity to set 
meaningful goals and targets, but require them to intervene 
where schools are not making overall progress for their 
subgroups. And so we will be vigilant in showing that States 
respond and States have to intervene where subgroups are 
struggling, where the schools are in the bottom 5 percent of 
performance or where they have low graduation rates. And if 
their interventions do not meaningfully improve student 
performance, they will need to intensify those interventions 
using evidence of effectiveness.
    Mr. Scott. Now, you mentioned the bottom 5 percent. There 
is some suggestion that the data collected will not allow you 
to rank schools and if you cannot rank schools, how do you 
ascertain the bottom 5 percent?
    Secretary King. That is an excellent question. It is one of 
the reasons the regulations require a summative rating, but how 
States approach that summative rating could vary.
    Some States may use a numerical index, some States may use 
an A-F methodology, some States may use categorical labels for 
different sets of schools, but the law does require that States 
intervene in that bottom 5 percent of schools and they will 
need to have a summative rating to get to that bottom 5 
percent.
    Mr. Scott. Last month, the GAO released a study that I 
requested, along with former Ranking Member George Miller and 
Judiciary Committee Ranking Member John Conyers, on segregation 
in public schools K-12. The GAO report found that there is an 
increase in racial and socioeconomic segregation and that it is 
getting worse.
    I have asked for hearings and, hopefully, one day we will 
have hearings on that, but what can ESSA do to reduce racial 
and socioeconomic segregation in our public schools?
    Secretary King. Let me say we are deeply concerned about 
the lack of progress since Brown v. Board of Education in 
places around the country where we are seeing increased 
socioeconomic and racial isolation.
    I think there is an opportunity as States consider their 
flexibility to intervene in struggling schools to think about 
how they create a strategy that would promote school diversity.
    We made school diversity a priority in our competitive 
grant programs. The President, as you know, has proposed in the 
2017 budget an initiative called ``Stronger Together'' that 
Senator Murphy and Congressman Fudge and you are also helping 
us to advance, that would allow us to direct resources to 
support voluntary locally led efforts to increase school 
diversity.
    We also are using the magnet schools program, the 
longstanding magnet schools program, to support local efforts 
to increase school diversity, but we know that for our low-
income students, they do better in schools that are 
socioeconomically diverse.
    We know that we want to prepare all of our young people for 
success in a diverse society. All kids benefit from diverse 
schools.
    Mr. Scott. Thank you, Mr. Chairman.
    Chairman Kline. Thank you, gentlemen. Dr. Foxx, You are 
recognized.
    Ms. Foxx. Thank you, Mr. Chairman. Secretary King, welcome 
to the committee. I would like to return to the supplement not 
supplant conversation.
    In 2011, the Department issued a policy brief and report 
analyzing the compliance and the comparability requirement for 
per pupil expenditures for Title I schools, a proposal that is 
analogous to the Department regulations. Assuming you have more 
recent data, would you please provide us the estimated cost in 
State and local dollars of compliance with the proposal put 
forth by the Department during negotiated rulemaking?
    Secretary King. I just want to make a distinction in the 
way that the question was framed between comparability and 
supplement not supplant. Comparability addresses the issue of 
services, supplement not supplant addresses the issue of the 
allocation of State and local funding.
    The proposal that was discussed in negotiated rulemaking 
and adjusted throughout the negotiated rulemaking would require 
States to comply with the--supplement districts to comply with 
the supplement not supplant provision of the law. The process 
that districts would use to do that would be determined by the 
districts and so there is not a single number that can be 
estimated today for that proposal. But as I said, the proposal 
was adjusted throughout the negotiated rulemaking and we will 
continue to adjust that proposal based on the input and 
feedback we have received since then.
    Ms. Foxx. Well, how can the Department put forward a 
regulatory proposal without understanding the financial impact 
and how can the Congress and the public be expected to evaluate 
its wisdom without such information?
    Secretary King. Well, the requirement in the statute is 
that the Federal dollars be used in a way that is supplemental. 
In fact, the language ``supplement not supplant'' is intended 
to separate the issue of the use of Federal funds from the 
issue of State and local funds, to say that State and local 
funds should be allocated in a way that is equitable and then 
the Federal funds should be supplemental.
    Ms. Foxx. The Center for American Progress reported last 
year the nationwide compliance cost for proposals similar to 
yours would be 8.5 billion. Do you think that is a reasonable 
estimate?
    Secretary King. Again, the design of the proposal was to 
implement the requirement in the statute that the Federal 
dollars be used in a way that is supplemental. Districts have a 
responsibility to ensure that they are not using those Federal 
dollars to backfill State and local funds. To the extent that 
districts are today using Federal dollars to backfill State and 
local funds, that is not consistent with the very words 
``supplement not supplant.''
    Ms. Foxx. Let me now focus on how school districts would 
comply with your proposal. The Department's 2011 report 
indicates some of the Nation's largest school districts could 
have to increase spending by anywhere from less than 1 percent 
to as much as 20 percent.
    Please tell the committee specifically how school districts 
are not able to increase spending by these amounts to comply 
with your proposal.
    Secretary King. Again, the frame of the question suggests 
that districts today are using the Federal dollars in a way 
that backfills local and State responsibilities so the 
requirement would be for districts to ensure that they are not 
doing that, that the State and local funds are allocated in a 
reasonable fashion that allows the Federal dollars to be used 
to indeed supplement. And to the extent that a district is 
spending 25 to 30 percent more in a school serving affluent 
kids than in a school serving high needs kids 10 blocks away, 
that cannot possibly be consistent with the very words 
``supplement not supplant,'' and the adjustment they will need 
to make is one that is required by the statute.
    Ms. Foxx. If school districts are forced to change teacher 
hiring policies and somehow find the legal and contractual 
authority to do so in order to comply with the proposal, school 
districts, rather than school principals will assume more 
authority for personnel hiring decisions in local schools.
    Tell us how this would benefit low-income students when we 
know that effective principals with greater staffing autonomy 
can be one of the most effective ways to increase student 
outcomes?
    Secretary King. If today districts are using the Federal 
dollars in a way that is not supplemental, then they need to 
correct that. They can do that in a number of ways.
    They could create incentives for veteran, highly effective 
teachers to go to schools. They could invest in pre-K programs 
in a high-needs school.
    They can ensure that high-needs school has access to 
counselors or launches advanced coursework. The reassignment of 
teachers is not a requirement of the proposal. As a general 
matter, I do not think anyone supports forced transfers of 
teachers. That is not required by the proposal. What the 
proposal requires is that the Federal dollars are used in a way 
that is, in fact, supplemental.
    Chairman Kline. The gentlelady's time has expired. Ms. 
Davis, you are recognized.
    Ms. Davis. Thank you, Mr. Chairman. Good to see you, Mr. 
Secretary. Thank you for joining us, although we probably got 
to bed a little bit later perhaps than you did.
    I wanted to follow up with Ranking Chairman Scott's 
question and ask about the ``n'' size, the number of students 
that we group to evaluate whether or not they are being 
properly served. And I think that there are some concerns that 
students perhaps, especially special education students, for 
example, might not be really properly seen within an 
accountability system.
    Could you comment on that and, for example, if the number 
fell to 28, 29 for a group, what would that mean?
    Secretary King. We are very concerned about issues of ``n'' 
size. What we propose in the regulations is that States would 
set their ``n'' size, but they would need to provide 
justification to the peer review process if they set an ``n'' 
size above 30. The reason we use that is based upon research 
evidence on how we ensure that we capture subgroups as well as 
possible.
    IES did a study that showed that if you use an ``n'' size 
of 40 or more, you would only get to about 32 percent of 
students with disabilities but if you use an ``n'' size of 30, 
you would get to about 79 percent. So we ask States for a 
justification if they want to go above 30.
    We have heard feedback that there are stakeholder groups 
who are interested in requiring a justification at a lower 
``n'' size and we do worry about subgroups getting missed and 
at the schools where a particular subgroup of students does not 
get the adequate services to make academic progress and that is 
never identified. One of the important elements of the law is 
requiring subgroup disaggregated data and we want to make sure 
that is enforced while preserving for States the flexibility to 
justify their ``n'' sizes.
    Ms. Davis. Exactly. I mean, the disaggregation we know is 
key.
    In looking back at the way this was done previously and 
States moving forward, are you confident that you are going to 
be able to have this be more a universal standard or, in fact, 
it sounds like there is quite a bit of leeway perhaps with some 
groups? I just wanted to throw that out there because I know 
that it is a concern and it will be very important not to have 
that slipping.
    Secretary King. Yes, that is a very fair concern. The vast 
majority of States today are at 30 or lower and we think the 
peer review process will provide an important check on the end 
sizes that States ultimately choose.
    Ms. Davis. All right, thank you. And I wanted to go to the 
issue of teacher evaluations because we know that in ESSA, it 
is quite clear that this is really up to local school 
districts. And yet I wanted to sort of talk about the language 
a little bit because clearly, in this legislation, we want 
States and we certainly want school districts to do the very 
best they can in developing a program that engages teachers in 
the process and in addition helps them be better, helps them do 
what they really want to do and have it be meaningful. And that 
is where many districts and many States really do not have a 
process to do that, so where is the Federal role in that now 
and what is certainly within the purview of the ESSA?
    Secretary King. We think it is very important that the 
Every Student Succeeds Act preserves the language of equitable 
distribution of quality teachers from No Child Left Behind, and 
so we have been working with States, as you know, on equity 
plans where States are working on initiatives to ensure that 
their teachers are well prepared, that they have a diverse 
supply of teachers, that they are getting teachers to high-
needs schools.
    There are State initiatives focused on rural schools. State 
initiatives focused on the necessity of teachers of English 
language learners where some States are struggling in shortages 
and we think those equity plans are very important. What we 
propose in regulations for comment is that States will adjust 
and update those equity plans based on some of the new language 
that appears in the Every Student Succeeds Act. But we want to 
make sure that our low-income students, students of color, 
students with disabilities, English learners are not 
disproportionally taught by teachers, for example, who are 
teaching out of field. And so that is an important, I think, 
requirement of ESSA and an important principle.
    Ms. Davis. Yeah, I think I am equally concerned about that 
sharing of information because we know that we have peer 
evaluation systems that actually work very well, also, and they 
may require more substitute time, but I just want to mention 
that and go ahead and--
    Chairman Kline. Gentlelady's time has expired. Dr. Roe?
    Ms. Davis. Thank you.
    Mr. Roe. Thank you, Mr. Chairman. And congratulations, Dr. 
King, on your nomination and appointment as Secretary. And just 
a couple of comments about backfill. And in our State I was the 
mayor of our local community. Once we had raised the education 
spending, we could never go back, so there was no backfill at 
all.
    Anything that came in was additional to what we had in the 
list, at least in the State of Tennessee. And for the first 
time since I have been a Congressman, 7-1/2 years, it is fun to 
walk into an elementary school or high school and see smiling 
teachers and smiling administrators finally. They do like this 
bill.
    I spoke with one of my school directors yesterday and I 
think it is really the implementation of it and that is why we 
are talking today so that last night we went to a 1,000-page 
rule to define one word. I do not think we need that kind of 
weight down on these folks and distance where we are, the 
Department of Education is provided grants where for the 
Foundation where I live, it has done a great job of getting 
distance.
    I want to revisit a conversation we had in February about 
the weights States apply or the indicators of their 
accountability system. It said, and I quote, ``I think we have 
an opportunity where the States can broaden how they define 
excellent education and make their definition more well rounded 
than the narrow focus on English and math assessments like we 
saw during the No Child Left Behind era.''
    I was pleased that your proposal did not prescribe weights 
or offer a range of weights in which States would have to 
choose but I am concerned about the parameters that did include 
to limit the way States waiver indicators.
    Can you point to me the statutory language that supports 
your proposal and how the limitations imposed in your proposal 
fit with your commitment to give States an opportunity to 
broaden how they define success?
    Secretary King. Thanks. I appreciate your question. So, we 
carefully, consistent with the statute, do not prescribe the 
weights or percentages for different indicators. The statute 
does require substantial weight for the academic indicators and 
that the academic indicators are of much greater weight than 
the other indicators. And so we built into the regulations a 
set of checks that will be implemented through the peer review 
process to ensure that States are acting in ways that are 
consistent with the statutory language around substantial 
weight and much greater weight.
    But we do think there is tremendous flexibility for States 
to think through what additional indicators they will use to 
supplement English and math and graduation rates and 
opportunity for States to look at things like whether or not 
they are providing access to advance coursework as that effort 
tries to do in Tennessee, whether providing access to advanced 
coursework in a way that is equitable for various subgroups of 
students.
    Mr. Roe. We agree that local control is essential. 
Accountability is essential and desegregation of data is 
essential to find out that our children--their needs are not 
being met.
    Mr. Secretary, as you know, the statute requires States to 
include in their accountability systems at least one indicator 
of school equality or student success. The point of this, of 
course, is to ensure the State accountability systems are 
taking into consideration more than just test scores in 
determining school performance.
    The statute includes a few broad parameters for this 
indictor but your proposal goes beyond those parameters by 
requiring that this additional indicator be supported by 
research that performance or progress on such indicator is 
likely to increase student achievement or graduation rates. 
Could you provide the statutory justification for adding this 
additional requirement?
    Secretary King. This is really about the State plan and 
showing that as States do this work of identifying these other 
indicators, that the indicators are connected to students' 
long-term success, which is the goal of these additional 
indicators being a part of the accountability system. And as 
the peers and experts on the peer review panels review the 
State plans, we think it is important for them to look at the 
indicators in that context.
    One quick example: in the CRDC data that I just described, 
we found that nationally 13 percent of students are chronically 
absent. That is 13 percent of students are missing more than 15 
days of school each year.
    We know that chronic absenteeism is closely connected to 
students' progress from grade to grade and their likelihood of 
graduation. That is a good example of an indicator that a State 
might consider. Obviously it is up to States to decide what 
those would be, but that is a good example of where there is 
very strong evidence based on the association between that 
indicator and long-term success.
    Mr. Roe. Just one last comment before my time expires is 
that I think we have a great opportunity to put the fun back in 
education again.
    I mean, the teachers were just absolutely--I would go into 
a group of educators and ask how many would do this job again 
and the majority would not and that is not good. And I think 
this gives us an opportunity to put the fun back in education 
and I hope we do not weight it down too much. I yield back.
    Chairman Kline. The gentleman yields back. Ms. Adams.
    Ms. Adams. Thank you, Mr. Chairman, and thank you Ranking 
Member Scott and Secretary King. I thank you for joining the 
committee again and congratulations.
    I am very proud of the work that was done to get the Every 
Student Succeeds Act passed into law. The reauthorization of 
the Elementary and Secondary Education Act was long overdue and 
we owe it to our students and families around this country to 
update this important legislation. And now as we work toward 
implementing the act, I believe it is appropriate for us as 
members of Congress to monitor its progress, but I am 
absolutely opposed to efforts to undermine the Department of 
Education and the spirit of the law. We had our chance to write 
the law and now we should let the process move forward. 
Additionally, the Federal Government has an appropriate role in 
education policy and I believe that the Department will move it 
forward to fully realize it.
    In States like my State, North Carolina, Federal policies 
are essential to protect our students from a number of State 
policies that in my opinion are ruining a State that has once 
been a leader in education. Since Republicans took over the 
General Assembly, we have passed a number of bills and I was 
there during the time that in my opinion would dismantle public 
education and that has been some of what I have seen.
    We need to value our educators more and we have some 
questions in North Carolina about whether or not we do that. We 
pay them less than the national average and we are ranked as 
one of the worst States in per pupil spending and so provisions 
like supplement not supplant are really imperative. So without 
it I am sure that North Carolina might make even deeper cuts to 
education and we are very concerned about that.
    If you can just expand a little more on the importance of 
Federal funds being used to supplement instead of supplant 
State funds, I would appreciate that.
    Secretary King. Thank you. At the end of the day really 
this is a question of ensuring that all students have access to 
a quality education. And we know that in places where there is 
disproportionate spending on affluent students and less 
spending on high-needs students, it translates into a real 
difference in students' experience in school.
    For example in that CRDC data, the Civil Rights Data 
Collection data, we found that there are 1.6 million students 
who go to a school that has a school police officer but no 
school counselor. If you have no school counselor in your 
school, how are you going to support students' socioemotional 
needs? How are you going to ensure that students have access to 
good postsecondary planning?
    We found that in many of the schools that served the 
largest numbers of African American and Latino students, you 
cannot even take calculus or physics. How are we going to 
ensure diversity in the STEM fields and that students have an 
equitable shot at STEM careers if their schools do not even 
offer those classes? And so money certainly is not everything, 
but in schools that have inadequate resources, that lack of 
funding translates into a real lack of educational quality for 
kids.
    Ms. Adams. Yeah, thanks. So oftentimes students attending 
Title I schools are students of color. These same students also 
make up consistently underperforming subgroups. And so having 
said that, do you truly believe that allowing States to choose 
how to determine the success of subgroups will actually result 
in the improvement of subgroup outcomes?
    Secretary King. I think we really have to be vigilant in 
the peer review process to make sure that States commit to 
meaningful goals and targets for subgroups.
    In the regulations, we try to set guardrails around that 
process but peer review of the State plans will be critical and 
vigilance in the part of the Department and ultimately in the 
part of Congress to make sure that States are attentive to the 
needs of subgroups and that where subgroups are struggling, 
they meaningfully intervene. We know the history that there are 
States that have long ignored the performance of subgroups, 
States that prior to No Child Left Behind did not even count 
their English learners in their accountability systems at all.
    We have got to be vigilant. We think that we have set the 
right guardrails in the regulations, but we also are interested 
in folks' feedback on those.
    Ms. Adams. So thinking about these same subgroups of 
students without requiring specific summative ratings, how will 
we hold schools accountable for improved outcomes for our 
lowest performing students?
    Secretary King. We think that summative ratings are 
critical for transparency for parents, for teachers, and 
ultimately for communities. Which schools are struggling and 
need that additional support and also which schools are 
excelling and can be models for other schools to replicate 
their best practices.
    We also require transparent reporting on each of the 
indicators because we think it is important to have that 
summative rating but also to have good information at the 
school level and also the subgroup level and all of the 
indicators.
    Ms. Adams. Thank you, Mr. Secretary. Mr. Chairman, I yield 
back.
    Chairman Kline. The gentlelady yields back. Mr. Guthrie.
    Mr. Guthrie. Hello, Mr. Secretary, and I agree that the way 
you write the law and you implement and execute the law is what 
our Founding Fathers intended. However, it is our 
responsibility not just to write the law and let it go, it is 
to have oversight to make sure you are complying with the 
intent and the language of the law. So a couple of things.
    One, today my commissioner from Kentucky is going to be 
here to speak to us and one of the things I know he has 
concerns with and others have concerns with is about the 
expedited timeline required in your proposal. The ESSA says No 
Child Left Behind's accountability provision officially end on 
August the 1st of this year and in the statute it says that new 
accountability systems will begin with the 2017-2018 academic 
year. And it is clear that Congress intended for 2016-2017 to 
be a transition year to allow States to develop their 
accountability systems, yet your proposal effectively requires 
accountability systems to be developed and implemented 2016-
2017, in this academic year. And I asked you about this 
transition when you were before us in February and you 
answered, and I quote, ``As we move into the 2017-2018 school 
year, States will be well positioned to move forward on their 
new plans.''
    And I interpreted your answer as meaning you understood 
congressional intent that accountability systems would become 
active at the beginning of the school year. The initial 
identification of schools would come at the end of the school 
year based on those new systems. Unfortunately, what you 
propose seems to contradict the statute and will short circuit 
the important consultation process taking place at the State 
and local level.
    Can you make a commitment to us to revise this proposal in 
the final rule to align the requirement with congressional 
intent and ensure that parents and educators have the 
opportunity to fully engage in the policymaking process?
    Secretary King. Just to be clear on the proposed rule, 
under the proposed rule that is currently out for comment, 
there is no State that would need to have their accountability 
system in place prior to 2017-2018.
    The question is what will happen in 2017-2018? And we are 
interested in folks' feedback on the timeline. We are eager, I 
think, as the country is to ensure that we move beyond just 
English and math test scores and graduation rates, that we 
actually begin to use those other indicators. That is our 
opportunity to expand the definition of educational excellence 
and we would like to move quickly to that expansion.
    I understand that there are folks who would like to extend 
the focus just on those English and math test scores and 
graduation rates, but we want to make sure we get to this 
broader definition. But we are interested in folks' feedback on 
the timeline and will try to listen carefully to the input we 
receive.
    Mr. Guthrie. My commissioner will be here this afternoon 
testifying. I am sure you will have people here to hear 
feedback and continue the dialogue.
    One thing on the ``n'' size and I understand that there is 
information prescribed by law that needs to be provided, the 
disaggregation of data, we want to make sure that groups are 
followed and we understand the statistics.
    I understand that, but the statute allows the State to pick 
that ``n'' size and this says as long as they meet the 
criteria, you cannot prescribe the ``n'' size. It is pretty 
clear on that and that is something that we debated and talked 
about and we will not--I know you talked about one of my 
colleagues about the information. We want you to have that 
information because we voted to put into law that the country 
gets that information.
    We also voted to say that we want the States to determine 
what that end size is and if they do not do it correctly then 
you have some opportunity to do so, but it seems like you are 
prescribing an end size of 30 up front, which I am not sure 
where the statutory authority for that is.
    Secretary King. Just to be clear, we are not requiring any 
specific end size. What we are asking is when States submit 
their plan, if they choose an end size above 30, they provide 
information with respect to why they made that choice.
    Mr. Guthrie. Do you give them deference if they have--
    Secretary King. Again, the regulation preserves the right 
of States to set their ``n'' size. Now, the peer review process 
does create an opportunity for the plan to be reviewed and I do 
think it would be important in terms of civil rights 
protection.
    For example, if a State were to set their ``n'' size in a 
way that would ensure that students with disabilities would 
never be counted in their accountability system, that would 
clearly be problematic and I am sure that the peers and the 
peer review process would respond negatively to them, but in 
the regulation we do not set the ``n'' size.
    Mr. Guthrie. Maybe I misread that, but 30 was the default 
unless there was some--it did not seem like the States were 
able to--and you are right, if the States set an end size that 
did not comply with the rest of the law, there is something 
that we need to address because we want that information as 
well. That is why we voted to support the law and negotiation.
    I only have 10 seconds left, so I will yield back. Thanks 
for coming today.
    Secretary King. Thanks.
    Chairman Kline. The gentleman yields back. Ms. Bonamici, 
did you want to ask a question?
    Ms. Bonamici. Yes, please, Mr. Chairman.
    Chairman Kline. You are recognized for 5 minutes.
    Ms. Bonamici. Thank you, Chairman Kline. Welcome to the 
committee, Secretary King. I wanted to align myself with the 
comments from Dr. Roe and others who have said that they have 
perceived a real difference in visiting with schools and 
teachers, educators, parents, students knowing that the changes 
were made and the Every Student Succeeds Act that they were 
desperately needing--and thank you for the work that you are 
doing along with the Department to implement the Every Student 
Succeeds Act and support States that are redefining their 
assessment and accountability systems to meet their unique 
needs. Thank you for your leadership and I want to follow up on 
a question that was just asked by Mr. Guthrie.
    I understand the need to prevent a gap in meaningful 
interventions for students, but I am concerned that asking 
states to identify schools for comprehensive and additional and 
targeted support in the 2017-2018 school year could discourage 
States from being innovative. And I know the Department will 
work with States to modify their accountability systems and add 
indicators as data from districts becomes available, a process 
that could take several years.
    Nonetheless, asking States to implement accountability 
systems in time for the 2017-2018 school year seems to run the 
risk of hampering innovation, so can you please discuss the 
Department's alternatives? Is there a way that we can both 
prevent a gap in support for students and give States the time 
to put in comprehensive accountability systems that make good 
use of new data?
    Secretary King. One important point about the proposed 
regulations is that States would be able to use the 2017-2018 
year as a planning year for those schools that are requiring 
comprehensive intervention, but I think ultimately, as I have 
said, we are interested in feedback on the timeline questions.
    I think we, like many educators in schools, have a sense of 
urgency about broadening the indicators that are used for 
accountability and to the extent that States are prepared to 
move more quickly to incorporate an indicator like chronic 
absenteeism or there are some States that have put forth a very 
meaningful effort to try to reduce disproportionate 
suspensions, for example, for students of color.
    If States are in a position where they want to introduce 
those indicators, we would like to see them do that more 
quickly so that they are moving beyond just the English and 
math scores and graduation rates. But we are interested in 
feedback and want to work with States and districts to think 
through the best timeline.
    Ms. Bonamici. Thank you, and I am glad that the 
Department's proposed regulations for accountability would 
direct schools identified for comprehensive and additional 
targeted support to evaluate resource inequities, but the 
proposed rule appears to focus on only two examples of 
discrepancies and resources: per pupil expenditures and access 
to out of field and inexperienced teachers.
    So considering these inequities is important, of course, 
but I wonder whether States and districts would not consider 
other important inequities, for example, access to advanced 
coursework, technology, arts and music. How will the Department 
encourage States and districts to identify and address a broad 
array of resource inequities?
    Secretary King. Yeah, we tried in the regulation to balance 
wanting to make sure that States do the things that they must 
and then also offering additional options and there is ``may'' 
language around things like advanced coursework and access to 
preschool, which we think is a very significant equity issue. 
But again, this is a place where we are open to feedback with 
always trying to strike the right balance around State and 
local flexibility and real transparency around resource equity. 
And we are interested in feedback not only from States, but 
from civil rights community and advocacy organizations as we 
think through the right resource equity indicators.
    Ms. Bonamici. Terrific, and the Every Student Succeeds Act 
is clear that participation rates for a statewide assessment 
needs to be a factor in accountability systems and the 
Department's proposed rule for accountability systems would 
give the States four options for incorporating data on 
participation.
    One of the options allows States to develop their own 
proposals for including participation rate in accountability 
systems. For States that pursue this route, how will your 
Department assist them as they contemplate actions that are 
perhaps less punitive but no less effective in ensuring that 
all students are counted?
    Secretary King. I think this issue of the participation 
rate is very bound up with how do we ensure strong parent 
understanding of the role of assessments in schools? And I 
think there are clearly reasons that folks have seen over the 
last decade.
    An increase in assessments, not the federally required 
assessments, but increase in assessments in schools that have 
driven a very legitimate set of concerns, that is why the 
administration proposed a testing action plan and has put 
forward guidance and helped to offer places where folks can use 
existing Federal resources to support reductions in assessment.
    That is a feature of the Every Student Succeeds Act that we 
want States to take advantage of and districts to take 
advantage of so that they right-size the assessments and where 
they can, replace maybe low-level bubble tests with higher 
quality performance-based assessments. Those kinds of efforts 
we think will help ensure that States and districts are able to 
comply with the law's expectation that all students will 
participate in the assessments.
    Ms. Bonamici. As someone that has been talking about fewer, 
better assessments for a long time, I look forward to 
continuing to work with you on that and I yield back the 
balance of my time. Thank you, Mr. Chairman.
    Chairman Kline. The gentlelady yields back. Mr. Byrne?
    Mr. Byrne. Thank you, Mr. Chairman. Mr. Secretary, it is 
hard to remember all of us up here. I am going to remind you 
that I am a former member of the Alabama State Board of 
Education for 8 years. All four of my children attended the 
public schools in the State of Alabama. All four of them 
attended a magnet school in the city of Mobile, a large urban 
school system. So I have a great deal of interest in this and I 
have very high expectations for the performance of our public 
schools with regard to every student.
    When you were here before the committee in February, I 
asked about the phrase of the new law ``consistently 
underperforming and whose responsibility it is to define the 
term.'' I also wrote a follow-up letter on March the 1st that 
you responded to on June 17th, 3-1/2 months later.
    Now, in your response, you pointed to the proposed 
rulemaking. When you were here before, you did not really 
answer my question and after reading the proposal, I think I 
understand why.
    When you were here before, you did say to me, ``I am 
committed to working with this committee, committed to ensuring 
that implementation is consistent with the letter of the law.''
    I would say to you, Mr. Secretary, if you are committed to 
working with the committee, taking 3-1/2 months to answer my 
letter is not consistent with that remark.
    The letter of the law says the meeting of ``consistently 
underperforming'' is to be determined by the States.
    The letter of the law also says that you are prohibited 
from prescribing ``the specific methodology used by States to 
meaningfully differentiate identified schools under this 
part.''
    Now, taken together, the law prohibits you from 
constraining State flexibility around the definition of 
``consistently underperforming,'' yet your proposal does 
exactly that so help me.
    Why would you violate the statute of your proposed 
rulemaking and give a definition when the Every Student 
Succeeds Act prohibits you from doing so and requires you to 
leave that up to the States? Why did you do that?
    Secretary King. To be clear, in our regulation, 
``consistently underperforming'' is defined by the State, using 
goals and targets that the State would set.
    Again, our role, we believe, is to try to gather feedback 
and input, which we did. And based on that input, we put 
forward a proposed rule that is now out for comment, but we 
were careful to comply with the letter of the law and 
``consistently underperforming'' is left to States to define 
with their own goals and targets.
    Mr. Byrne. Well, I would ask you to go back and look at the 
rule because I think it does prescribe and I think you are 
setting yourself and the Department up for a lawsuit that you 
would lose.
    I am not going to file it, but somebody will. And you 
talked earlier about legislative intent. I am giving you 
legislative intent right now. You need to go back and look at 
your rule because it clearly violates the letter of the statute 
and prescribing.
    It needs to totally leave this up to the States and in any 
way that you prescribe to the States how they make that 
determination, you are clearly in violation of the statute. So 
I am asking you to go back and look at your rule, hear what a 
member of this committee that is a strong proponent of this law 
is telling you, and I think if you do, and you are a smart man 
and you are a fair man, if you go back and look at it fairly, 
you are going to see that you are in violation of the statute.
    I do not want you to be in violation of the statute. I do 
not think you want to be in violation of the statute. But when 
you have a consistent pattern of this administration and 
putting out regulations after they have been warned that you 
are in violation of the statute as written by Congress and then 
somebody has to file a lawsuit, here is what happens when a 
lawsuit is filed. You spend a lot of resources, the people that 
file the lawsuit spend a lot of resources, and every penny of 
those resources is a penny that did not go to educating a 
child. And I want, and I think you want, every resource we can 
bring to bear to educate children in this country.
    Somebody deep in the bowels of your Department or some 
smart lawyer that is working with you is taking you in a 
direction that the statute clearly prohibits you from going. 
And as someone that wants this to work, I am telling you, go 
back and look at your rule because I think you are in violation 
of the statute.
    Secretary King. I appreciate the feedback. We will look at 
the rule, but, again, I just want to underscore that States 
will set the goals and targets from which the determination of 
consistently underperforming will be made.
    Mr. Byrne. We are going to hold you to that and I yield 
back.
    Chairman Kline. The gentleman yields back. Mr. Rokita?
    Mr. Rokita. I thank the chairman. Thank you, Mr. Secretary. 
I want to continue on this line of questioning regarding your 
rules, but a different rule, supplement versus supplant. You 
recall that under the old SNS rules, supplement not supplant 
rules, that we differentiate between targeted schools and 
school-wide schools, and targeted schools have 3 specific tests 
and for schools that were less than 40 percent low income, 
correct? And the school-wide group was for schools that were 
more than 40 percent of kids--yeah, more than 40 percent 
schools.
    And you acknowledge, don't you, that under ESSA, the Every 
Student Succeeds Act, that the methodology for distributing 
State and local funds to schools is just to be fair and 
equitable without regard to receipt of Title I funds? So we got 
rid of the targeted test in ESSA and had the school-wide test 
for all of SNS.
    Secretary King. It is written with the core requirement 
being that the Federal dollars are, in fact, supplemental.
    Mr. Rokita. Right, but it is the school-wide test now 
applied for all SNS. Your rule has a methodology applied to it 
that calls for Title I schools to receive at least as much 
input in per pupil funding as the average amount of per pupil 
funding received by the districts non-Title I schools.
    So we specifically put prohibition in the new law that says 
you are not to apply methodology, yet you do. So how are you 
not in conflict, directly in conflict, with our legislative 
intent, similar to what Mr. Byrne was pointing out?
    Secretary King. So just to clarify on the timeline, so we 
have a proposed rule that was offered in negotiated rulemaking, 
feedback was given during negotiated rulemaking, the rule was 
suggested, and we continued to receive input and feedback and 
do not have currently a rule out for public comment, but--
    Mr. Rokita. Does that mean that--
    Secretary King. We anticipate issuing a regulation on this, 
but I just want to be clear that there is not currently a 
proposed rule that is out for comment.
    Mr. Rokita. They are negotiating rulemaking and you do 
realize that you are in direct conflict with--
    Secretary King. So with respect to negotiating rulemaking, 
we do not prescribe the methodology. In fact, the methodolgy is 
left to districts, districts could use, for example, a weighted 
student funding formula approach.
    A district could use an approach that is based on the 
traditional assignment of staff model of budgeting, so we do 
not prescribe the methodology. What we were trying to do in the 
rule that was discussing negotiating rulemaking is ensure that 
districts are indeed using the Federal dollars in a way that is 
supplemental and not backfilling State and local 
responsibilities.
    Mr. Rokita. Do you agree that the only requirement we have 
in the Every Student Succeeds Act regarding the methodology and 
distribution of SNS funds is that the fair and equitable and 
agnostic as to a school's Title I status, that was the intent? 
I was in a conference committee and I helped write this law. 
That was our legislative intent.
    Secretary King. But clear history on supplement not 
supplant is--
    Mr. Rokita. I am not talking about history, I am talking 
about this new law.
    Secretary King. Including in the new law, the language in 
the new law is quite clear on the notion that the Federal 
dollars will be supplemental and in order to--
    Mr. Rokita. The methodology around that, the only 
requirement is that we have to be agnostic as to a school's 
Title I status and otherwise be fair and equitable.
    Secretary King. If the district is using the Federal 
dollars--
    Mr. Rokita. Correct.
    Secretary King.--in a way that supplements rather than 
supplants local and State obligations.
    Mr. Rokita. But you understand that you are defining what 
``supplement'' means, though, through the methodology that it 
be fair and equitable. That would take in the school-wide test 
and applying it to all of SNS. And in doing that, the only 
requirement is that a district's method for allocating State 
and local funds be agnostic as to the school's Title I status, 
agreed?
    Secretary King. Not if they are supplanting. I think there 
are two things. There is the question of the district's 
methodology, which is up to the district, and then there is the 
question of whether or not the Federal dollars are being used 
in a way that is, in fact, supplemental and that is the plain 
language of the statute----
    Mr. Rokita. It seems like the Department and you, sir, are 
maybe using some comparability attempts to backdoor SNS, I 
mean--
    Secretary King. No, because comparability is focused around 
services and with supplement not supplant, we are focused on 
the allocation of funds.
    Mr. Rokita. I do not think so. I think the CRS document--
are you familiar with Congressional Research Service's 
document? On that it explains how your supplement not supplant 
proposal is really a backdoor proposal to amend the statute's 
comparability provision, and they walk through legislative 
history of that provision during Congress deliberations on what 
became ESSA. And they said a relevant part, ``ESSA did not 
alter the existing statutory language and prohibits the use of 
staff salary differentials when determining expenditures per 
pupil from State and local funds. Nevertheless, the proposed 
regulations appear to effectively require LEAs to use actual 
teacher salaries for SNS purposes despite the fact that ESSA 
did not address it in this manner.'' And I have to yield back.
    Chairman Kline. Gentleman yields back. Mr. Walberg.
    Mr. Walberg. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for being here, and the discussions to the 
questioning that is going on is important for us to do. 
Northwest Ordinance stated about education, religion, morality 
acknowledged being necessary to a good government and the 
happiness of mankind, schools and the means of education shall 
forever be encouraged.
    That is not in the U.S. Constitution. That is in the 
Michigan Constitution, taking high priority for the necessity 
of having schools and education encouraged so that people will 
be happy and productive. And so a discussion today as we have 
passed ESSA is really an attempt to roll back the power of 
authority, direction, control of the Federal Government, and to 
really give, as we have talked about at least in a bipartisan 
way, the front quotient back, the exciting quotient back, to 
educators in the classroom, school board members on the board, 
parents with means, and aspirations for their kids to know that 
education is a neat, beautiful, fun, and productive priority in 
civilization and that the greatest control will come from with 
the creativity from the local schools, teachers in the 
classroom, school boards, parents who love their kids, State 
boards of education.
    And so today as we are discussing this, it is becoming at 
least evident to me that this is a creative tension that we 
have when we have a powerful entity in the U.S. Department of 
Education, arguably wants to do right by kids in schools, but 
has a philosophical position to push and a pattern that has 
been developed over the years of, whether you believe it or 
not, we want to make sure that what we want to happen in our 
schools happen.
    That is human and I think the reason for our discussion 
today in this hearing is to say the priority goes back to the 
States and that is what our law did. So along with that, that 
would be a creative tension that we have and will continue to 
have and hopefully make it productive.
    To continue on similar questioning again and develop it 
further, Mr. Secretary, the statute requires States to assess 
95 percent of students while protecting the right of parents to 
opt out and granting States the sole discretion for determining 
how the test participation requirement should be factored in 
the State's accountability system.
    In fact, the statute explicitly prohibits you from 
prescribing how the State factors the requirement into the 
system, at least as I read it; that your proposal requires 
States to take at least one of four prescribed actions against 
schools that missed the requirement. Your proposal also 
requires schools that missed the requirement to develop a plan 
to address the failure and requires school districts with large 
numbers of such schools to also develop an improvement plan.
    This may be indeed a laudable goal, but the law is a law, 
so let me ask you this question. Can you provide the committee 
the specific statutory language that gives you this authority?
    Secretary King. Let me first say, Congressman, as a former 
high school social studies teacher, I appreciate the quoting of 
the Northwest Ordinance. It does not happen often.
    Mr. Walberg. I am a Neanderthal, I guess.
    Secretary King. No, no, no, I appreciate it and I want to 
say I strongly agree with your point on importance of the 
flexibility in this law around the design of the accountability 
system and in the design of the interventions which is, I 
think, also an important area of flexibility for States.
    On the question on participation rates, we often--
    Mr. Walberg. What is your statutory authority?
    Secretary King. Yeah, I just to make sure in your framing 
of the question.
    Mr. Walberg. I have 23 seconds, so.
    Secretary King. I will be quick. In the four options that 
are described in the regulations, one of them is for the State 
to determine how it will approach the enforcement. The other 
three are offered as means by which the State could enforce the 
95 percent accountability requirements which is in the statute. 
And States could choose the fourth option, which is State-
determined and that would go through peer review. So we were 
careful, as I have indicated before, to ensure that our 
regulations are consistent with the letter of the law--
    Mr. Walberg. I still did not hear your specific statutory--
    Chairman Kline. The gentleman's time has expired. Mr. 
Curbelo?
    Mr. Curbelo. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for being here this morning. I want to especially 
appreciate the Department's focus on English language. It was a 
major priority for me and the reauthorization, and you have 
certainly made some comments with regards to ELL students here 
today, but I want to ask you today about students in foster 
care. The Department has been active on this topic in recent 
weeks and I have had two specific questions, the first on the 
proposed regulation and the second on the guidance issued this 
morning.
    The statute clearly lays out a process for school districts 
and child welfare agencies to develop an agreement for paying 
transportation costs for students in foster care who remain in 
their schools of origin. Contrary to that language, the 
proposed regulations require school districts to pay for 
transportation costs with no mention of the process established 
in the statute. Please explain why the Department ignored the 
statutory text and is proposing to require school districts to 
cover transportation costs.
    If you do not think the Department ignored the statutory 
language, let us know how this provision complies with the 
clear language in the statute. And again, I think this is an 
issue where the legislation, the intent is for States to have 
the flexibility to work this out with their own agencies, 
school districts, and child welfare agencies.
    Secretary King. So, importantly, I think the foster youth 
provisions of the law are very important. And it is clear that 
foster youth are at risk and part of the reason they are at 
risk is because they are often moving between schools. And so 
the evidence is clear that students are better served when they 
can have educational stability or where there would have to be 
transitions that those transitions are smooth. And the guidance 
that was issued today we not only describe our interpretation 
of the law, but we also offer examples of best practice around 
the country, including places, States that have set up very 
clear dispute resolution processes, but where the guidance 
points us towards collaboration between the LEA, the school 
district, and the child welfare agency to both ensure that they 
are evaluating the best interest of the students, and then 
creating a reasonable plan for smooth transitions and 
transportation where necessary.
    In the proposed rule, we are looking for feedback and 
comment and we expect to get it and the guidance. Again, what 
we tried to do was point to exactly what you were describing, 
the need for LEAs and child welfare agencies to work 
collaboratively. The proposed rule offers some more specificity 
on processes to resolve those disputes. We are looking for 
feedback and input, and we certainly appreciate yours.
    Mr. Curbelo. So you believe that, ultimately, States will 
have that flexibility where the child welfare agencies and the 
school districts can collaborate and figure out amongst 
themselves how the transportation costs will be addressed?
    Secretary King. I think the hardest question is if there is 
a dispute, ultimately, how will we ensure that the student has 
educational stability? And we try to offer a path in the 
regulation on which we are looking for feedback. And the 
guidance we try, just as you described, to underscore the 
importance of that collaborative relationship and also describe 
examples of effective dispute resolution processes that are in 
place around the country.
    Mr. Curbelo. Well, thank you, Mr. Secretary, and I strongly 
encourage you to pay attention to the feedback and this comment 
period because I think it is pretty clear that all over this 
legislation, we have been focusing on State flexibility, 
trusting States and local communities to make the best 
decisions for these kids. And I think especially when it comes 
to kids in foster care, which we all want to make sure that 
they have access to a quality education, we want to give the 
States the opportunity to figure out the solutions that work 
best for the kids in those States and in those communities.
    So thank you again for your presence and your time here 
this morning. Thank you, Mr. Chairman. I yield back.
    Chairman Kline. The gentleman yields back. Mr. Allen.
    Mr. Allen. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary. It is good to have you here this morning.
    Mr. Secretary, ESSA requires schools with one or more 
subgroups performing at or below the level of all students and 
any school identified in the State's bottom 5 percent to be 
identified for targeted support. The statute then requires 
certain schools to be further identified for comprehensive 
support if they fail to adequately improve within ``State-
determined number of years.'' And as has been mentioned several 
times before, ESSA also prohibits you from prescribing the 
methodology used by States to identify schools, yet your 
proposal requires schools I just described to be identified for 
comprehensive support within three years if they have not 
improved.
    How is this proposal consistent with the plain language of 
the statute which says the length of time is to be State-
determined and the Secretary is prohibited from prescribing the 
identification methodology?
    Secretary King. Well, here the question is what happens if 
a school has been identified for targeted support and the 
subgroups are not making progress, so it is a bit different 
from the original identification.
    States will need to develop a process for how they will 
respond when schools are not making progress with those 
subgroups and the intention is that States will intensify their 
State-selected interventions based on evidence to ensure that 
those subgroups improve their performance.
    Mr. Allen. But again, the questions was, it looks like we 
have two methodologies here, the law versus the rule. And I did 
not quite understand exactly, I know the States are responsible 
for dealing with this particular issue, but your rule applies 
that the Federal Government is responsible for dealing with 
this particular issue. There seems to be a conflict here.
    Secretary King. I do not think so. I think the statute 
ultimately requires that States increase the intensity of the 
intervention when the intervention is not effective in 
improving subgroup performance and the regulations are trying 
to enforce that requirement of the statute. But again, these 
regulations are out for public comment. This is a place where 
we are interested in feedback from States and districts as well 
as civil rights groups and others.
    Mr. Allen. And that is important because obviously Congress 
writes the laws and, as you mentioned earlier, and what has 
amazed me in my short time here is, where we have intent on a 
law, that somehow it gets totally misinterpreted by the time it 
gets to one of the Departments. So I think it is great to have 
you here this morning and it is great to have this discussion, 
but I also think that we definitely need to follow up on these 
conflicts with the staff and our staff to make sure that we 
implement this law the way it was intended. And I yield back.
    Chairman Kline. The gentleman yields back. Mr. Courtney, 
you are recognized.
    Mr. Courtney. Thank you, Mr. Chairman, and I thank you, Mr. 
Secretary, for being here. And again, I applaud the chairman 
for holding this hearing, I think looking back at the 114th 
Congress, getting the ESSA done and signed into law I think is 
probably going to be viewed as one of the more unexpected 
pleasant surprises in a good way in terms of the accomplishment 
here. And as I am sure my colleagues have said, the action now 
has kind of migrated to the State level. And in Connecticut, 
there are working groups under the commissioner hard at work in 
terms of trying to, again, align State education policy with, 
again, the flexibility with some guidance from the Federal 
Government. So I just want to report to you that is full speed 
ahead in terms of what is going on there.
    One issue which I think is very important in the State of 
Connecticut is that as a result of desegregation lawsuits, 
Sheff v. O'Neal, Connecticut was, I think, very aggressive in 
terms of moving towards magnet schools as a solution to racial 
isolation, particularly in the city of Hartford, which I live 
about 17 minutes away from on the highway. And as the New York 
Times reported, there actually has been really encouraging 
progress made in terms of the magnet school model in terms of 
integrating--my daughter actually went to one of those schools 
that followed in the Sheff v. O'Neal, and I just can tell you 
that it was a life-changing experience. It is not something her 
parents pushed her into. She kind of found it on her own and so 
I personally would have liked to have seen us been a little 
more aggressive about helping promote magnet schools, 
particularly because the city of New London is now going all 
magnet and there is a provision that allowed transportation 
costs and some other expenses that make this still a bit of a 
challenge for local communities and States.
    And I am just sort of wondering, I never talked to you 
about your perspective on that and just sort of asked you how 
you see that approach, and at least the signals that the 
legislation sent out to be supportive.
    Secretary King. I mean, I am very pleased with some of the 
adjustments that were made to the magnet school program and in 
ESSA. I think that will help make it easier for communities to 
take a magnet school's approach.
    I would love to see us go further. That is why the 
President proposed the Stronger Together Initiative, which 
would be $120 million. That is in his 2017 budget to support 
locally led voluntary efforts around school diversity. And I 
think Hartford's magnet school program is, in many ways, a 
great national model that folks should take a close look at, 
both quality of options that are being offered to families that 
are diverse and the two-way feature of the Hartford approach, 
that students are able to go from suburban communities into 
urban schools and from urban schools into suburban communities. 
I think that is a very promising approach.
    We are also looking at how we can use other grant programs 
to encourage, again, voluntary, locally led efforts. And my 
hope is that some States will use the school improvement 
flexibility that they have under ESSA to pursue school 
diversity strategies because we know they can significantly 
improve academic outcomes, graduation rates, particularly for 
the students that are most at risk.
    Mr. Courtney. I appreciate your last comment there which is 
that the batting average for these new models has not really 
just been about sort of the racial composition of the student 
body. It is also about academic achievement and a number of 
magnet schools score higher than any other either private or 
public high schools and K-8 schools in the State of 
Connecticut. So again, I just want to again tell you a lot of 
us are rooting for the Department to continue that work in 
terms of promoting what I really think is a solution to the 
future success of this country using the magnet school model. 
And with that, I would yield back.
    Chairman Kline. Mr. Grothman?
    Mr. Grothman. Thank you for coming over here. When you were 
here in February, I asked you a question about teacher 
licensure and, more importantly, about teacher evaluation. We 
mentioned that in the Students Success Act, we believe that we 
prohibited you from any involvement in teacher evaluation 
systems.
    At the time I asked you about it, I said, ``Can we be 
confident now that those days are gone since that is what the 
new statute said?'' And you said, ``Yes, we are very clear that 
the law puts teacher evaluation in the hands of State and 
districts.''
    Nevertheless, you have now come back with a regulation that 
states that your Department requires States to establish the 
definitionary (sic) guidelines for defining ineffective 
teachers. The proposal also requires States to annually 
identify the percentage of teachers in each category with its 
ineffective definition.
    Now, just on the face of it, this looks completely contrary 
to what you told us in February, not to mention completely 
contrary to what is in the statute.
    What is your statutory authority for this proposal? And if 
there is no statutory proposal, please explain how you expect 
the State to meet this requirement without establishing a 
teacher evaluation system.
    Secretary King. The statute requires States to provide 
information on equitable access to quality teachers. We 
require, in the regulation, for States to define those terms as 
they comply with statutory requirement to report on 
disproportionate access to those quality teachers. They could 
not report if they did not define those categories.
    Mr. Grothman. So you are going to assure us that you have 
no concern about how quality teachers are defined?
    Secretary King. States are required to put forward-- their 
definitions, and that would be a part of the--
    Mr. Grothman. You are never going to question what their 
metric is?
    Secretary King. The proposal that they will submit as part 
of the State plan goes to peer review, which is not the 
Department, but it is other States and experts who will engage 
in peer review of the State plan.
    Mr. Grothman. Does the State of Wisconsin have to worry, 
regardless of what they use for teacher evaluation, that you 
will ever question that?
    Secretary King. Well, if they were not complying with the 
statute if they were not ensuring that students have equitable 
access to quality teaching. Yes, I would hope the future 
Department would ensure that the law is enforced.
    Mr. Grothman. You are kind of dodging this a little bit 
here. The question is, okay, the State of Wisconsin says such 
and such is a quality teacher, the question is are you ever 
going to question the definition of a quality teacher as 
defined by the State of Wisconsin?
    Secretary King. They have a set of terms that they have to 
define. For example, if they have teachers who are teaching 
outside of their license area, is it possible that in the 
future the Department might find that a State is evading their 
responsibility under the law to ensure equitable access to 
quality teaching? Yes, that is possible.
    Mr. Grothman. Obviously you collect tons of data, more data 
than I think you have any business constitutionally collecting, 
but nevertheless you do.
    As maybe you know, when I look at a lot of the problems in 
society, including problems of poor educational performance, I 
blame a lot of it at the breakdown of the family. And I just 
wonder when you collect data on all these students and you 
collect data on race, which I am not sure what that--do you 
collect data on family background of the kids? And if not, why 
not?
    Secretary King. There may be an IES study in which those 
kinds of issues are looked at, but I do not believe that ESSA 
has requirements around that.
    Mr. Grothman. I know it does not have requirements. I am 
saying in your tenure as Secretary, has there ever been a 
suggestion that maybe we ought to at least do a limited study 
on the family background of students and seeing if some family 
backgrounds are more conducive to educational achievement than 
others?
    Secretary King. There may be IES studies that address that.
    Mr. Grothman. I mean, you have just reams of data that you 
are collecting here. I just wonder whether you or anybody else 
in your Department has ever thought that might be an 
interesting topic to look into.
    Secretary King. I will look at whether there was an IES 
study in that subject and I will be sure that we get that to 
you.
    Mr. Grothman. Okay, I yield the remainder of my time.
    Chairman Kline. The gentleman yields back. Mr. Carter?
    Mr. Carter. Thank you, Mr. Chairman, and thank you, Mr. 
King, Mr. Secretary, for being here. We appreciate it very 
much.
    Mr. King, what I wanted to talk about was what the 
Department of Education has proposed with respect to backend 
checks on the weighing of indicators for State accountability 
systems.
    The statute that was passed in ESSA requires the States to 
establish the criteria that the schools must make to exit 
certain identification categories, but after having my staff 
read your proposal and after I read some of your proposals, it 
just seems like they go well beyond the scope of the statute by 
requiring those criteria to include improvements on the State's 
academic indicators. That appears to contradict what the 
statute's prohibition was against the Secretary prescribing 
exit criteria.
    Could you explain how you envision States and school 
districts implementing this portion of the proposal?
    Secretary King. Yeah, just to be clear again, we do not 
prescribe the weights or percentages for the indicators. The 
function of the backend checks is to ensure implementation of 
the statute, which requires that the academic indicators have 
substantial weight and then further requires that the academic 
indicators must have a much greater weight than the other 
indicators, so the backend checks are a way to do that. But as 
I have said, they are out for public comment and we look 
forward to reviewing the comment on those and I am sure you 
will get from States, from districts, from civil rights 
organizations, from parents, and others.
    Mr. Carter. Again, I want to make sure that the Department 
is not overstepping their bounds from what we intended for it 
to be through this legislation.
    Can you assure me that the Department is not going to go 
contrary to what is in the statute?
    Secretary King. Yes, we have been careful throughout this 
process to ensure that the regulations comply with the law. We 
also have been careful throughout this process to listen 
carefully to the feedback that we have received from 
stakeholders and will continue to do so.
    Mr. Carter. So you have received the feedback? Are you 
continuing to receive the feedback?
    Secretary King. We chose the areas for regulation and 
guidance based on feedback we received. We have had over 200 
meetings, we have received comment from over 700 individuals 
and organizations. We held 2 public hearings in which there are 
over 100 folks who testified and we continue to gather 
feedback.
    Now, the accountability regulations are out and State plans 
and data reporting regulations are out for public comment. That 
public comment period closes in August and we will review the 
feedback that we have received.
    Mr. Carter. Have you reviewed any of it yet? Do you have 
any indication of what are the concerns?
    Secretary King. I mean, we had a very strong concern, 
particularly from the civil rights community and organizations 
that are focused on kids who are at risk, that enforcing the 
requirements in the law for what I would characterize as civil 
rights guardrails is critically important, including the 
language that says that the academic indicators must have much 
greater weight and substantial weight.
    Mr. Carter. Okay, I am just concerned, okay? I want to make 
sure that you are not overstepping the bounds by what we 
intended for it to be through this legislation and I want you 
to assure me and the committee that the Department's proposals, 
that they align with the statute and that we are not going to 
have you back here trying to ask any more questions about what 
is going on. I do not want another example of the Department of 
Education overstepping their bounds.
    Secretary King. I appreciate that. We are being very 
careful to ensure that the regulations that we propose comply 
with the law.
    Mr. Carter. Okay, fair enough. Just full disclosure, I want 
to make sure we are on the same page here of what the intent 
was and what it is that you are doing.
    Secretary King. Understood. Again, I want to underscore 
that we have been very careful that the regulations we proposed 
comply with the law.
    We also are being very careful to gather feedback and I 
want to make clear that these proposed accountability 
regulations are a draft that is currently out for feedback and 
we are going to listen carefully to the feedback we receive.
    Mr. Carter. Okay, thank you, Dr. King. Thank you, Mr. 
Chairman. Now I yield back.
    Chairman Kline. The gentleman yields back. Mr. Bishop?
    Mr. Bishop. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for your time and your testimony today. Building on 
my colleagues' questioning, in particular the questioning by 
Mr. Allen and Mr. Carter, I just would reiterate what those 
others have said.
    I talk to educators and parents all the time. They are very 
concerned about the students' learning environments and are 
very attentive to this new law that we have passed, the ESSA. 
And they are skeptical in many ways because they do not believe 
that even though the law was written in such a way with such 
plain language and unambiguous language, that we will be able 
to implement it in a way that was intended.
    That government agencies tend to take liberties with 
whatever law is passed by Congress and we have seen that up and 
down the chain, not just in the Department of Education, but in 
other departments as well, in other agencies as well. So there 
is a bit of skepticism here and I am wondering, you have 
indicated that you have got the regulations out right now for 
comment. When you have completed those, are you prepared to 
come back in here with your final draft of those regulations to 
review them with us?
    Secretary King. I mean, I will certainly make myself 
available for committee meetings like this one. I think of this 
as a collaborative effort. I believe the law was passed through 
a collaborative effort between bipartisan leadership and 
Congress and the President and the Department, and we want to 
continue that collaboration.
    Mr. Bishop. In good faith, I think that is a wise position 
to take and one that I think is good for this committee as well 
as all of us have a sense of skepticism as to whether or not 
the law that we passed is the law that would be implemented.
    I have confidence that you are here today in good faith and 
I look forward to further dialogue. I had one specific question 
as well with regard to the ESSA, Mr. Secretary. It requires 
States to include the 4-year adjusted cohort graduation rate as 
an indicator in their accountability system. The statute also 
requires States to report annual data on the 4-year adjusted 
cohort graduation rate.
    The statute does not, however, require States to use the 
graduation rate when calculating which high schools are 
identified for comprehensive support based on low graduation 
rates. The statute leaves the calculation of the graduation 
rates for identification purposes, as Mr. Carter had indicated, 
earlier to the States.
    In addition, as you know, the statute prohibits you in 
particular from prescribing the specific methodology for 
identifying schools.
    How is your proposal that we discussed today that has been 
outlined consistent with the plain language, the unambiguous 
language of the statute in the prohibition against prescribing 
methodologies?
    Secretary King. The key with graduation rates is to have a 
graduation rate indicator that is present in all schools and 
the only graduation rate indicator rate present in all schools 
as required by ESSA is the 4-year graduation rate. That said 
the regulation provides for States' ability and their plan to 
create exceptions for schools that might serve new arrival 
English learners, schools that might serve students with very 
significant severe disabilities, schools that might serve 
students who dropped out and are now returning to school.
    But again, the 4-year graduation rate is the rate that is 
required for all schools to report under ESSA.
    Mr. Bishop. You believe when you are talking about the 
inception that you are speaking of--give you, despite the fact 
that there is a prohibition against prescribing methodologies, 
that fits within that exception that you are speaking of?
    Secretary King. Yes, and we are not prescribing the 
methodology, but we are using a data point that is available 
for all schools as the starting place for the State plan.
    Mr. Bishop. Okay, thank you, Mr. Secretary. Mr. Chairman, I 
yield back.
    Chairman Kline. The gentleman yields back. Mr. Thompson?
    Mr. Thompson. Thank you, Chairman. Mr. Secretary, when you 
testified before the committee in February, you said, ``The law 
rightly shifts responsibility for developing strategies to 
support the highest need students in schools to State and local 
decision-makers and away from the one-size-fits-all mandates of 
No Child Left Behind, and it creates opportunities for States 
to reclaim the goal of a rigorous, well-rounded education for 
every child.''
    I could not agree with your words more at that point and I 
appreciate hearing that perspective, yet your proposal would 
require State accountability systems to provide a single 
summative rating for each school.
    How is this proposal not a one-size-fits-all mandate that 
will stifle State efforts to reclaim the goal of, your words, a 
``rigorous, well-rounded education''? And can you commit to 
upholding your original commitment to this committee when you 
publish the final rule or are you veering away from that 
original promise that you made?
    Secretary King. We believe that the draft rule reflects 
that commitment. Again, we are going to take comment and try to 
respond to the comment that we receive.
    On the single summative rating, States have flexibility 
with how they would approach that. They could use an A-F 
approach as some States do today. They could use a numerical 
index as some States do today or they could use a categorical 
approach as many States do today.
    They will need such an approach in order to identify the 
bottom 5 percent of schools clearly, but we also require that 
States provide information to parents and teachers about all of 
the accountability indicators so there will be robust 
information about all of the accountability indicators. And 
this is a place, again, where we will take public comment and 
try to be responsive to the comments we receive. But it is 
clear that in order for the law to work, parents and educators 
and the community need to have a clear understanding of which 
schools are struggling and a need of more support and which 
schools are excelling and can be models of best practice.
    Mr. Thompson. I think the intent of Congress was very clear 
and, in the end, this is very bipartisan, as you know, as we 
finished.
    It tends to work that way in that process here through 
refinement and I think at all costs, we want to avoid a cookie 
cutter, a one size fits all. Does that really describe what No 
Child Left Behind became, especially in the outer years beyond 
the authorization time for it when it was allowed to continue? 
And we really, really need to make sure that we are providing 
that type of flexibility. And I think it really comes down to, 
and I have talked about this among my colleagues here, it is a 
question of trust and, in the end, members of Congress 
demonstrated in a bipartisan way, bicameral way, which is 
really unusual these days, a trust of the States and the local 
governing boards. And we expect that you will do the same thing 
and that your department will do the same thing to have that 
trust.
    I wonder, the recent issue came to my attention. Last week, 
your accreditation staff announced it was recommending to 
terminate the Federal recognition of the Accrediting Council of 
Independent Colleges and Schools, and the National Advisory 
Committee on Institutional Quality and Integrity is meeting 
right now to decide their independent recommendations. It is 
somewhat related, a little bit outside the ball park here 
today, but I just wanted to take the opportunity to ask you on 
this since you are here and I appreciate you being here.
    Now, these actions are only recommendations. However, as 
you have the ultimate authority to decide the fate of ACICS, as 
you know, the ACICS is one of the Nation's largest accreditors 
responsible for accrediting approximately 250 schools, serving 
320,000 students, and terminating the recognition of an 
accreditor this large would be unprecedented. And, therefore, I 
am concerned that the Department is ill-prepared to respond to 
the potential impacts of this move.
    Is the Department prepared with a plan to assist goals if 
they lose accreditation? And does the Department have the 
capacity available to process a change of accreditation 
requests for schools that seek alternative accreditation?
    Secretary King. So as you indicated, there is a potential 
that I would hear an appeal in the ACICS case, so I cannot 
comment on the specifics of ACICS. I will say that the time 
that the recommendation was made by Department staff, we posted 
information for the institutions and for students about 
potential consequences.
    There is a process over the next several months for 
deliberation by Masiki for an appeals process and then there is 
a final agency determination on an accreditor, there is an 18-
month period in which schools can seek an alternative 
accreditor and the information we posted provides details on 
that.
    Mr. Thompson. Should this go into a final recommendation by 
you then, you would certainly allow the schools to give him the 
sufficient time to find a new accreditor to make that 
transition.
    Secretary King. Yes, we believe that schools that are doing 
a good job by their students will be able to manage 
transitioning to another creditor in that 18-month period any 
time an accreditor were to lose its authority, not just 
specific to ACICS. But we can certainly have staff follow up 
with you on that information that we will provide.
    Mr. Thompson. That would be very good. I would love to talk 
offline with you about how schools are doing great by their 
students but some are having problems with their accreditors.
    Chairman Kline. The gentleman's time has expired. All 
members have had an opportunity to engage in the discussion. I 
want to thank you again, Mr. Secretary, for your time here 
today and your engagement with each of the members.
    I would underscore that there is a theme here that I am 
sure was not lost and that is that we put a lot of effort, 
bipartisan effort, a lot of struggle as you mentioned and 
included in the administration in getting the language of the 
statute very, very clear. And so we will continue to be 
watching. We would like to stay engaged with your staff as we 
go for it to do everything we can to make sure that the 
regulations that the Department is required to publish are not 
just sort of, like, semi-consistent with but exactly consistent 
with the lettering and intent of the law. So thank you very 
much.
    We are going to let you go back to work and start taking a 
look at all that feedback from those regulations and we thank 
you very much for being here today.
    Secretary King. Thank you.
    Chairman Kline. We will be seating the second panel here 
momentarily.
    Mr. Scott. Mr. Chairman, can we submit to the record a 
letter from the Tri-Caucus on accountability to the Secretary?
    Chairman Kline. Without objection.
    [Recess]
    Chairman Kline. Welcome to our second panel today. It is 
now my pleasure to introduce our distinguished witnesses and I 
recognize Mr. Guthrie to introduce our first witness.
    Mr. Guthrie. Thank you, Mr. Chairman. I appreciate it. 
Today I am going to introduce the Kentucky Commissioner of 
Education, Steven Pruitt, as a witness for today's hearing. In 
September of 2015, the Kentucky Board of Education unanimously 
voted to hire Steven L. Pruitt as Kentucky's sixth Commissioner 
Of Education.
    Commissioner Pruitt came to Kentucky with extensive 
background in standard assessment accountability. He started as 
a high school chemistry teacher in Fayetteville, in Tyrone, 
Georgia, and later served as a science and math program manager 
and director of academic standards with the Georgia Department 
of Education, and he was associate State superintendent for 
assessment accountability.
    Most recently, Commissioner Pruitt served as a senior vice 
president for ACHIEVE, a national nonpartisan, nonprofit 
education reform organization based in Washington. He is a 
native of Georgia, but he is a proud Kentuckian. And 
Commissioner Pruitt holds a bachelor's degree in chemistry from 
North Georgia College, a master's in science from West Georgia, 
and a doctorate from Albany University.
    I think he is sitting next to an Alabama Crimson Tide 
graduate so we will see how that works. Commissioner Pruitt and 
his wife are parents of two children and their son attends 
University of Colorado and their daughter is a high school 
senior attending public schools in Kentucky. And welcome to 
Washington, thank you.
    Chairman Kline. Thank you, Mr. Guthrie. I will continue now 
with the rest of the introductions. We would like to avoid any 
conflict down there.
    Ms. Cassie Harrelson serves as a math teacher on a special 
assignment with the exceptional student services for Aurora 
public schools in Aurora, Colorado. In this role, she built 
special education teachers' capacity to increase student math 
achievement through a student-centered instructional coaching 
model.
    Ms. Harrelson also serves as an affiliate faculty at Regis 
University where she instructs teachers on using formative 
assessments to support linguistically diverse students in their 
language acquisition.
    Ms. Daria Hall serves as the interim vice president of 
government affairs and communications with the Education Trust 
in Washington D.C. Previous to this, Ms. Hall served as the 
organization's director of K-12 policy development and worked 
as an analyst for the Texas Legislative Council in the 
Milwaukee office of U.S. Senator Herb Kohl, so quite a bit of 
geographical movement there.
    And Dr. David Schuler serves as a superintendent for a 
township high school in District 214, blue ribbon high school 
district, located in Arlington Heights, Illinois. Prior to 
this, he served as a Wisconsin teacher, coach, student 
activities and athletic director, principal, and 
superintendent.
    Dr. Schuler also serves as president for AASA, the School 
Superintendents Association. Welcome, all.
    Now, I ask our witnesses to please raise your right hand.
    [Witnesses sworn.]
    Chairman Kline. Let the record reflect the witnesses 
answered in the affirmative. Just a reminder in our lighting 
system. We will keep track of it right here. When you start 
your testimony, you will have a green light. When you get down 
to after 4 minutes, a yellow light will come on, please start 
thinking about wrapping up. When a red light comes on, please 
wrap up as expeditiously as you can. And then when you finish, 
members will have 5 minutes to ask questions and engage in the 
discussion.
    We will start with Dr. Pruitt. You are recognized for 5 
minutes.

  TESTIMONY OF STEPHEN L. PRUITT, COMMISSIONER OF EDUCATION, 
                KENTUCKY DEPARTMENT OF EDUCATION

    Mr. Pruitt. Chairman Kline, Representative Scott, and 
members of the committee, I would like to thank you for 
inviting me to testify today on the recent efforts to implement 
the Every Student Succeeds Act.
    As chief State school officer for the Commonwealth of 
Kentucky, I am excited about the future of education in our 
State under this new law, any opportunity to build on the 
significant progress that Kentucky has made to date.
    We have already started that work by engaging on a broad 
spectrum of education stakeholders. We have held 11 regional 
town hall meetings and one virtual town hall with a total 
participation in excess of 3,000 people.
    Kentuckians have told us what they value in their schools 
and how they define schools' success. We have listened and we 
are using those comments to shape our work under the ESSA.
    The alterative promised by the ESSA is a welcomed departure 
from the prescriptive nature of No Child Left Behind and I 
appreciate the continued focus on closing the achievement gaps.
    In Kentucky, we are working to move all children to higher 
levels of learning while also determining the root cause of 
achievement gaps which we believe stem from opportunity gaps 
and access to rigorous, high-quality learning opportunities. I 
commend the U.S. Department of Education for its quick response 
in drafting regulations and releasing them in a timely manner 
for public comment, but when one examines these regulations, 
they contain so many restrictions and requirements, State 
choices remain severely limited.
    The proposed regulations stifle creativity, innovation, and 
sovereignty of States to govern their own education policies. 
Additionally, the volume of complex regulations are in direct 
opposition to Kentuckians' desire for a simple system that 
provides a broad view of scope performance.
    Implementing a new accountability system is a monumental 
task. Despite our best efforts, I am concerned about the 
timeline and the State's ability to implement a new quality 
system that takes full advantage of ESSA.
    While we understand accountability under the new law would 
start at the beginning of 2017-2018, the proposed regulations 
would require using data available in 2016-2017 generated under 
the current accountability system to identify schools for 
comprehensive support and improvement, possibly even prior to 
U.S. Ed's approval of the new system. As a result, schools will 
not accurately be identified.
    We would suggest continuing the support, the concurrent 
priority schools, through the 2017-2018 school year and 
identifying new schools for the 2018-2019 school year based on 
the measures of the new system.
    I believe that is the intent of ESSA. While the proposed 
regulations claim to replace NCOB's narrow definition of school 
success, requiring a single summative score goes beyond what 
the statute calls for.
    The proposed regulations limit States' ability to take a 
dashboard approach which is broader, fairer, and a more 
accurate representation of school performance and more likely 
to lead to school improvement.
    In Kentucky, we found that a summative score leads to 
ranking and creates an unhealthy sense of competition rather 
than collaboration that supports school improvement. We also 
found in some instances it becomes more about adults chasing 
points and trying to game the system to manage the appearance 
of performance, rather than actual performance.
    Finally, I am concerned that the U.S. Ed's recent 
regulatory proposal in Title I supplement not supplant will 
exceed the statutory authority under ESSA and will promote 
harmful consequences for students. So when the Department 
publishes its proposed rule of supplement not supplant, I urge 
you to review it closely and encourage that it informs and 
conforms to congressional intent and avoids the unintended 
negative consequence promoted by the Department's earlier 
proposals in this area.
    There are many other points in the proposed regulations 
that I have addressed in my written comments and that Kentucky 
will be addressing in its formal comments submitted to U.S. Ed. 
Now more than ever, what States need to implement ESSA is 
honest two-way communication, consistency, and to be trusted to 
make good decisions.
    We need a commonsense approach that supports a quality 
system of assessments, accountability, and school improvement 
measures that will be implemented with fidelity and will 
promote doing what is right for students. However, a compliance 
mentality prevails.
    For example, even though our NCOB waiver allows Kentucky to 
give a no reference test in science, recently U.S. Ed told us 
that the science test was not aligned with the current--
required to give a science test not aligned with current 
academic standards and the poor performance levels that are not 
truly reflective of student learning or we must face 
consequences in order to meet the compliance element.
    I could not in good conscience comply with this and as a 
result, we have been placed on condition for our Title I, Part 
A, and IDEA Part B Federal fiscal year 2016 grant awards all 
because we wanted to do what was right for students and not 
waste money on a meaningless test.
    We have now quality tests that are scheduled to be 
implemented in the same year as the ESSA. Kentucky is committed 
to fully realizing the congressional intent of ESSA.
    If this is all true and this represents a new day in 
education for America, States must have the support to take 
action based on quality and what is best for students and move 
away from compliance mentality.
    The Commonwealth of Kentucky looks forward to revised 
regulations that empower States with the freedom to plan, 
innovate, design, and implement quality education systems that 
will ensure opportunities for all students and promote the 
pillars of equity, achievement, integrity within the education 
policy in Kentucky.
    As a final reminder, quality implementation is critical and 
I would remind you that no great education initiative ever 
failed in the vision stage. It failed in the implementation 
stage.
    [The statement of Mr. Pruitt follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
    Chairman Kline. Thank you. Ms. Harrelson, you are 
recognized for 5 minutes.

  TESTIMONY OF CASSIE HARRELSON, MATH TEACHER, AURORA PUBLIC 
                   SCHOOLS, AURORA, COLORADO

    Ms. Harrelson. Okay, thank you, Chairman Kline, and members 
of the committee, for inviting me to join you today. My name is 
Cassie Harrelson and I am currently a math teacher on a special 
assignment working with special education teachers in Aurora 
public schools in Colorado.
    In my role, I am in classrooms daily, collaborating with 
teachers to best support students with disabilities. My entire 
career in education has been spent working with students who 
are behind their peers on grade level academic standards.
    I have also worked in diverse environments from Aspen, one 
of the State's top performing to Aurora, which will enter its 
fourth year of a priority improvement plan later this summer.
    Students at my school district speak over a 130 different 
languages and our free and reduced lunch is at 71 percent.
    Every child, regardless of family income, ethnicity, or 
home language deserves to attend a school with opportunity. 
This belief is what drives me daily. It is also why I am here 
today to speak on the promise of ESSA and not only for our 
students in Colorado, but across the Nation.
    NCOB had its strengths, such as the use of disaggregated 
data to help problem-solve around closing achievement gaps, but 
it was a one-size-fits-all approach that did not work for my 
students.
    The passage of ESSA last December offered a new promise, an 
explicit shift from the top-down NCOB style decision-making to 
bottom-up State and local control. Finally, educators closest 
to the students they teach would determine how to best help 
students succeed. ESSA offered flexibility at the local and 
State level and required engaging stakeholders to assess 
community assets and challenges to drive score improvement. We 
were also promised relief from NCOB's excessive focus on 
standardized testing that was not timely or meaningful to 
educators or students.
    In order to ensure the appropriate intersection of local, 
State, and Federal policy that is best for our students, all 
stakeholders must be engaged, including educators, students, 
parents, and community members.
    As strong as I feel the legislation is about giving local 
leaders back their voice and the accountability process, I am 
worried that extensive areas dictated under the proposed 
Federal regulations take away my voice. For example, the 
accountability regulations tell us that Colorado must have a 
summative rating system with three levels of proficiency 
overall and with each subgroup of students. I know this 
requirement is nowhere in the law and something we were 
supposed to decide at the State level.
    The proposed regulations also seem to upset the balance to 
find legislation and return the focus to standardized tests by 
diminishing the importance of the student and school support 
indicator. We shift back to a failing system that is overly 
focused on tests as opposed to truly helping students achieve.
    As an educator in a school with a high number of English 
language learners, I am also concerned about the proposed 
regulations that set expectations for attainment of English 
language proficiency within a period of time after students' 
identification. This timeframe should be determined by 
educators, not an arbitrary number.
    In Aurora, some English learner students arrive with 
comprehensive educational backgrounds, but some arrive with 
interrupted or limited formal schooling. We must respect 
educator discretion on this issue.
    Finally, I am concerned about the proposed regulations that 
dictate consequences for districts that fail to meet the 95 
percent requirement for testing. While the law retains the 
requirements to ensure that students are participating in the 
test, the proposed regulations go beyond by dictating the 
actual consequences that schools must face.
    Instead of punishing districts, we should be helping 
districts find solutions to solve the lower participation rate 
and our assessments. And again, how to handle lower test 
participation rates was supposed to be determined at the State 
level and once again the Department is taking away that 
opportunity.
    I ask that you honor your commitment to our students and 
ESSA by respecting the legislation to include educator voice at 
the local and State level as we know our students best. It is 
time to get those with actual teaching experience the 
opportunity to have a say.
    This work ahead of us is extensive but imperative so that 
every child, regardless of family income, ethnicity, or home 
language has an opportunity to attend a great public school and 
succeed.
    [The statement of Ms. Harrelson follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    
    Mr. Rokita. [Presiding] Thank you for that. I realize by 
the look in some of the witnesses' faces that I probably should 
introduce myself. I am Todd Rokita, chairman of what we 
colloquially call the kindergarten to 12th grade subcommittee 
on education, so welcome to each of you.
    Ms. Hall, you are recognized for 5 minutes.

  TESTIMONY OF DARIA HALL, INTERIM VICE PRESIDENT, GOVERNMENT 
 AFFAIRS AND COMMUNICATIONS, THE EDUCATION TRUST, WASHINGTON, 
                              D.C.

    Ms. Hall. Thank you, Chairman Kline, Ranking Member Scott, 
and members of the committee. Thank you for the opportunity to 
share my perspective on implementation of the Every Student 
Succeeds Act.
    This perspective is informed by the Education Trust's long 
history of working alongside educators, advocates, and 
policymakers to close gaps and opportunity and achievement. Let 
me begin as we always do at the Ed Trust with some data.
    In the year since we have had Federal requirements for 
annual testing, full public reporting, and serious 
accountability for the results of every group of children, 
results in the national assessment of education progress and 
high school graduation rates are up, especially for low-income 
students and students of color.
    Now, of course, policies themselves do not close gaps and 
they do not raise achievement. Only the hard work of educators, 
students, and families can do that. But smart policy is a 
source of urgency to address problems that would otherwise 
languish and it is critical that we do not lose that urgency 
because, despite gains in the data, the data is also abundantly 
clear that far too many young people are still not getting the 
quality education they need and deserve.
    So what does this all mean for ESSA implementation? In 
short, we need to pick up the pace of improvement, not back 
off. Thankfully, the law you crafted contains a number of 
important levers that can help with that, including statewide 
standards and assessments aligned with the demands of college 
and the workplace, accountability systems that expect more 
progress from groups of students who have been behind and 
prompt action when any group is struggling, and rich public 
reporting on academic outcomes, and opportunities to learn for 
all groups of students.
    Implementing these levers must be done in a way that is 
responsive to unique State and local contexts and in a way that 
builds on the insights of educators and communities. But the 
need for State and local decision-making does not mean that 
from now on the U.S. Department of Education should simply 
recede into the background. Indeed the Department has the 
authority and the responsibility to ensure that the equity 
goals of ESSA are honored.
    I will note here that the consensus reached on the 
assessment regulations during the negotiated rulemaking process 
is an important example of both confidence in the regulatory 
process and the need for clarification with the statute.
    Looking to the Department's proposed regulations on 
accountability, public reporting, and State plans, they clarify 
and bolster the law's equity provisions in many important ways 
including the requirement that all indicators in the 
accountability system be desegregated by each group of students 
so schools cannot sweep the performance of some students under 
the rug; clarity that supergroups cannot take the place of 
individual student groups so progress among one group cannot 
match stagnation or declines for another, the prioritization of 
academic outcomes so the main purpose of schooling stays in 
focus; the expectation of full participation in State 
assessments so schools cannot return to the old practice of 
opting lower performers out on test day; and the requirement 
that all schools receive a summative rating so parents get an 
at a glance view of school performance.
    Now, it is important here to dispel this emerging narrative 
that we can have either summative ratings or rich public 
reporting through dashboards, but not both. That is simply not 
true. Summative ratings can and should exist alongside rich 
public reporting of all of the data that goes into the ratings 
and measures beyond those ratings, too.
    There are also areas where the proposed regs must be 
improved. For example, the definition of consistent 
underperformance for subgroups is essential to assuring that 
struggling students get the support they need, but some of the 
options for this definition undermine the expectation that when 
any group and any school is not making process, those students 
must get support. Instead, the option signal that it is okay to 
act only in some schools where students are struggling and 
leave students and others to languish.
    The importance of rules to clarify and bolster ESSA 
requirements has been made clear. In recent months, States have 
begun their implementation efforts. Already, there have been 
suggestions that would undermine the intent of the law, such as 
including indicators that cannot be disaggregated or using 
supergroups in place of individual student groups.
    We will work alongside partners in the business, civil 
rights, and disability communities to remain vigilant in 
ensuring the equity provisions of the law are upheld and we 
urge leaders in Congress and the Department to do the same. 
Thank you.
    [The statement of Ms. Hall follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Mr. Rokita. Thank you, Ms. Hall. Mr. Schuler--excuse me, 
Dr. Schuler, you are recognized for 5 minutes.

 TESTIMONY OF DAVID R. SCHULER, SUPERINTENDENT, TOWNSHIP HIGH 
        SCHOOL DISTRICT 214, ARLINGTON HEIGHTS, ILLINOIS

    Mr. Schuler. Thank you very much. I would like to extend my 
deep appreciation to Chairman Kline, Ranking Member Scott, and 
the entire Committee on Education and Workforce for your 
tireless work to complete the reauthorization of the Elementary 
and Secondary Education Act.
    This new law holds States and school districts accountable 
while still allowing significant flexibility. Tight on goals 
and loose on means is a well-researched philosophy that 
correlates positively to student achievement.
    Under SO, the role of the Federal Government is one of 
supporting and strengthening our Nation's public schools, not 
prescribing and dictating to us, and as it realigns the balance 
of authority so that the Federal Government can maintain it is 
appropriate limited focus on closing achievement gaps while 
empowering State and local education leaders to make the day-
to-day decisions that most directly impact the school systems 
we lead.
    State and local education agencies now have an opportunity 
to examine schools with the inclusion of a nonacademic 
indicator. This represents a dramatic shift from the NCOB focus 
on snapshot testing to a more comprehensive, well-rounded 
system to assess school quality. In February, at the National 
Conference on Education, AASA, the school superintendents' 
association, launched a new research-based multi-metric 
initiative to redefine what it means to be college and career 
ready, called ``Redefining Ready.'' That could have never 
happened under the waiver process or NCLB.
    Under ESSA, you have given us permission to dream and lead 
and transform public education in this country, and we will do 
just that. I applaud the Department's proposed regulation 
leaving the end size determination to the States.
    I would say that I am concerned about the proposed 
regulation regarding the 2-year timeframe for States to 
identify consistently underperforming schools as statutory 
language in ESSA states that decision should be made at the 
State level.
    It is my belief that the determination of a timeframe 
should be made as part of a broader context of the State 
accountability system.
    I am equally concerned about proposed regulation 201.8 that 
requires a State plan to include one summative rating for at 
least three distinct rating categories for each school.
    ESSA does not require each school to be rated by a single 
indicator. States should be allowed to create balanced 
accountability systems and move away from reducing our schools 
and teachers down to one single letter or number.
    Another concern I would note is the proposed regulation 
that would require States to identify schools in need of 
support or improvement for the start of the 2017-2018 school 
year.
    States are just developing their implementation plans now. 
How can schools be held accountable this coming school year for 
metrics not yet developed.
    I would suggest that it is unfair to students, teachers, 
parents, and our communities to be judged and rated by unknown 
metrics.
    While I am very pleased that the proposed regulations did 
not attempt to define much more than regarding the weight of 
academic indicators and nonacademic indicators, I do have a 
concern with the extent to which the proposed regulations 
include restrictions that indirectly ascribe weights to those 
academic indicators.
    While I strongly support the right of students in foster 
care to have transportation to their school of origin, I do 
oppose the proposed regulation regarding the transportation of 
foster children. The Department's proposal deems that when it 
comes to transporting children in foster care, if the child 
welfare agency in the district cannot reach an agreement, it is 
the district's responsibility to cover transportation costs. In 
these challenging fiscal times, it is deeply troubling that 
this proposal would create a new financial burden for many 
districts, especially in a manner that at such direct odds with 
what ESSA requires.
    ESSA's carefully crafted statutory language requires a 
collaborative approach between child welfare agencies and LEAs, 
and provides that if there are additional costs for 
transporting students in foster care, the district will provide 
transportation for the child under three specified conditions. 
I believe the proposed regulation is in direct conflict with 
the statutory language of ESSA that was negotiated in a very 
collaborative and purposeful manner, and I would suggest that 
there is really no need for the regulation as the statutory 
language is very clear.
    I would note that I have strong reservations about the 
Department's proposal regarding supplement not supplant.
    I am concerned that the proposal being advanced by the 
Department blurs the lines between two distinct but equally 
important statutory provisions. Supplement and not supplant and 
comparability, both target at maintaining the integrity of 
Title I dollars.
    Finally, I would urge the Department to use restraint in 
issuing regulations, but playing a critical role in supporting 
State and local implementation of assets through the sharing of 
best practices and technical assistance.
    The sheer volume of new practices, programs, and approaches 
that State and local education agencies will be considering and 
adopting means that States, schools, and school districts will 
need a clearinghouse to share what is working, what is not 
working, and what we learned along the way. Imagine the 
Department being a repository for what is working in our 
Nation's schools in regards to career pathways, coding, closing 
the achievement gap, grade level readiness, a digital 
curricular transformation, resource efficiencies, and other 
issues facing U.S. schools.
    America's teachers and school district leaders will not let 
you down. I applaud the committee's work on ESSA and am 
confident that our public education system will be better as a 
result of the Every Student Succeeds Act being the law of the 
land. Thank you.
    [The statement of Mr. Schuler follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
 
    Mr. Rokita. Thank you, Dr. Schuler. I would like to start 
with you, recognizing myself for 5 minutes. You are hitting on 
your last comments there on something that I was trying to get 
out of Dr. King, but I myself ran out of time in the 
questioning, and that is using SNS as a backdoor to 
comparability to come in. You mentioned that just now in your 
testimony, Can you go into some more detail there about your 
concerns? Because you remember that in the Every Student 
Succeeds Act, we specifically said our comparability formulas 
or intentions were not changing from the old law to the new 
law, yet they want to change comparability it seems.
    Mr. Schuler. It is a concern because comparability allowed 
us the opportunity to not have to focus intently on ensuring 
salaries, were included as part of the supplement and not 
supplant.
    Mr. Rokita. Mm-hmm.
    Mr. Schuler. And so we cannot dictate who applies to our 
schools. And so if that regulation ends up really happening, 
the end result of that will end up being forced transfers and 
that is a huge concern.
    Mr. Rokita. Forced transfers because isn't it true that the 
most significant part of any school budget is personnel cost?
    Mr. Schuler. Absolutely.
    Mr. Rokita. So if you are going to balance that through 
comparability, then you are transferring teachers from one 
school to the other?
    Mr. Schuler. Correct, which may not be a good fit for that 
school.
    Mr. Rokita. Why not?
    Mr. Schuler. Because you could have a school, let's say, 
when I was superintendent in central Wisconsin, I had a school 
that was an elementary school, Title I, focused completely 
around technology. The skill sets of the teachers in that 
school looked very, very different from a traditional 
elementary school.
    Mr. Rokita. Mm-hmm.
    Mr. Schuler. And as a result, the people that applied to be 
in that school setting had a very specific skill set. If I 
would have been forced to ensure that the salaries of all of my 
elementary schools for Title and non-Title would have been the 
same, I would have been forced to move people with the skill 
set I needed in that school out--
    Mr. Rokita. Right, or hurting the Title I students that are 
supposed to be helped by all this.
    Mr. Schuler. Correct.
    Mr. Rokita. So your testimony is that the Department's 
proposal here is actually going to--it has a strong potential 
of hurting low-income students that Title I is supposed to 
help?
    Mr. Schuler. It definitely could.
    Mr. Rokita. Yeah. Ms. Harrelson, thank you for your 
testimony as well. Ms. Hall talks about the ability to have 
summative indications as well as the retrieval of rich data as 
well. You were sort of negative on the summative aspect of the 
data collection. Can you go into more detail there? Because I 
agree with you.
    Ms. Harrelson. So you are asking on data collected on 
students?
    Mr. Rokita. Yes, and use your microphone, please.
    Ms. Harrelson. Okay, you know, I think that we have to be 
cautious of the data that we are looking at, and a lot of times 
that when we are looking at some of the summative measures, 
they are not fully aligned to what is actually happening in our 
schools because of the nature of some of the standardized 
assessments that we were using so--
    Mr. Rokita. Could you give examples?
    Ms. Harrelson. Some examples?
    Mr. Rokita. Yeah.
    Ms. Harrelson. Well, if you look at some of the assessment 
items that are used on tests that were allowed to create 
standardized assessments, they do not always get at that rich 
understanding that we really want to see that kids are showing, 
so I support, as a teacher, more of a formative local level 
type of assessment where teachers can really use that to guide 
next instructional steps. And I just always err to being a 
little bit cautious that a lot of the data that we receive from 
these assessments really cannot be used to guide instruction 
and improve outcomes, so we have to be really cautious of too 
much emphasis on that.
    Mr. Schuler. Thank you, Ms. Harrelson. Dr. Pruitt, you were 
critical in your testimony of the accountability proposal 
proffered by the Department. Do you want to go into any more 
detail there?
    One point specifically, were you witness to the--not a 
witness on, but were you witness to the first panel with Dr. 
King?
    Mr. Pruitt. I was.
    Mr. Rokita. Do you want to comment on that panel at all in 
terms of accountability systems or supplement versus supplant 
or anything else you observed?
    Mr. Pruitt. I think it would be fair to say that his 
interpretation of some of his regs are different than ours. I 
think--
    Mr. Rokita. ``Ours'' being who?
    Mr. Pruitt. Ours in Kentucky in particular. Of course, we 
have been supported by the Council of Chief State School 
Officers as well.
    We have had a lot of conversations but for us around the 
accountability in particular, it is easy to say, of course, 
2017-2018 will be the first year because that is what ESSA 
requires. However, actually the fact that we have to identify 
schools in 2016-2017 for 2017-2018 means that you actually are 
perpetuating the old system for at least another year.
    We in Kentucky actually have two schools that because they 
were caught in that same issue when our waiver went through, we 
have two schools that are at the same time listed in our top 5 
percent and bottom 5 percent because the systems were 
significantly enough different. And what it does is it creates 
a distrust of the system itself which means that people really 
do not pay attention and we do not see the kind of movement 
that we really need to see.
    Mr. Rokita. Thank you and final question. Do you have any 
reason to believe that Dr. King or the Federal Department of 
Education know you or your kids better than you do?
    Mr. Pruitt. Absolutely not. My kids are my kids.
    Mr. Rokita. Mr. Scott, you are recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman. I guess this is for 
everybody. I just wanted to know if there is any situation 
where it would be good policy to withhold school improvement 
resources and technical assistance to help improve a school 
just because a school is actually improving one school climate 
equality indicator, but is still failing to perform for the 
children? Should we be able to withhold school improvement 
resources?
    Anybody think that we ought to be able to withhold school 
improvement resources just because they may be improving on 
one, but failing on many others?
    Ms. Hall, on the participation rate the statute requires a 
meaningful factor. Assessment participation rates requires 
States to meaningfully factor in assessment participation rates 
for their accountability systems.
    How do you require a school-level consequence if they miss 
their participation rate?
    Ms. Hall. Absolutely. I think it is important to remember 
why that requirement is there in the first place, because of 
the value of the statewide annual assessments is to provide a 
common measuring stick that applies for all students across 
classrooms, schools, and districts.
    If we do not have full participation either because 
students are opting out or because, as history has shown, 
schools are opting out low performers on test day, we undermine 
the value and credibility of that information.
    When it comes to ensuring that test participation is clear 
in the school accountability system, it can happen in a number 
of ways, including making that clear in the rating as a school 
that was previously going to get, for example, an A could 
become a B. There are options that are allowed for States, but 
I believe that it is incredibly important to make sure that the 
value of the information in the accountability system is not 
undermined by having only some of the students participate in 
the assessment and if there is low participation, that must be 
clear.
    Mr. Scott. Thank you. Mr. Pruitt, you have been working on 
accountability equality and equity and made the point that just 
calculating a summative score does not spur improvement. How 
can you use--well, two things. One, how do you ascertain the 
bottom 5 percent that have to be addressed and how do you use 
the assessment to actually spur improvement?
    Mr. Pruitt. So I would say to your second question first, 
the reason I am in support of a dashboard is that it actually 
allows us to desegregate what I would consider school behavior, 
so we disaggregated student achievement in the past with No 
Child Left Behind and that was absolutely fantastic. In doing 
so, we allowed schools to sort of hide other things, in 
particular not guaranteeing a whole, well-rounded education for 
all students. So for me, the dashboard allows us to actually 
take a look across.
    And I realize that with our school report cards we have had 
extra data other than the summative score, but in Kentucky, 
people do not look past the summative score. They look at that 
and sure they can say you are better than 80 percent of the 
other schools, but what is it about that really means that you 
need to be improving?
    And for me, a dashboard really casts a spotlight on 
assuring that we are actually focusing on the right things. It 
is more of a laser-like focus to ensure that we actually see 
improvement as opposed to a scattershot approach. As to the 
bottom 5 percent, this is where I think the States actually 
meet that opportunity for us to be able to make that 
determination.
    For us, I have got 166 people on eight different committees 
who are focused on building a completely new system. And part 
of that is us determining how we would actually identify that 
bottom 5 percent in a way that holds people's feet to the fire, 
that ensures that kids are going to graduate literate, 
numerate, and that they have a well-rounded education. But, at 
the same time, I think that we are at a point, in Kentucky 
anyway, where we need a little bit more of an innovative way to 
do it than just simply applying numbers to it.
    Mr. Scott. Thank you. Mr. Schuler, you have suggested that 
a multi-metric accountability system is important. The ESSA 
encourages that, so I want to ask you what the draft 
regulation, including guardrails, to ensure low performance of 
traditionally underserved students is not masked, to make sure 
that your overall score does not mask the subgroups.
    What multi-measure system do you envision with a low-
achieving subgroup but a high graduation rate, for example? How 
do you make sure that you are not submerging the 
underperforming group?
    Mr. Schuler. That is a great question. That is one of the 
things I love about the system that we have developed and the 
use of the dashboard as well.
    You develop the architecture of your dashboard for each 
different indicator, including graduation rates, grades, 
success in algebra II, for example, because we know that is 
such a gateway course. You build all that up and as you 
populate, you can desegregate by each student group per 
variable. That is why it gives you such a more well-rounded 
comprehensive understanding of what is happening in that 
school.
    And then, if you still have your annual test, if those 
lines are going in the same direction and both up, that tells 
you one thing. If they are both going down, it says the States 
are really going to need to engage. And if you are going in 
opposite directions, we really need to dig into that date and 
see what is going on.
    So I love the idea of developing that multi-metric approach 
that--research-based, but then populates the dashboard that 
allows really to drill down into the data to improve 
instruction opportunities for kids.
    Mr. Rokita. I thank the gentlemen. The gentleman's time has 
expired. Dr. Foxx, you are recognized for 5 minutes.
    Ms. Foxx. Thank you, Mr. Chairman. I want to give a very 
strong thank you to our practicing professional witnesses here 
today for your strong, positive commitments to educating the 
young people in their purview.
    I think it comes across very, very strongly that you care, 
that you understand the subjects, and that you are really 
committed to serving the children that you serve, so it is so 
refreshing--it is not refreshing, it is great to hear it. I 
hear it a lot when I am at home from people in your same 
position, so I know there is a lot of good going on in 
education in this country. And the good that is going on is 
being done by people like you, and so I appreciate you very 
much.
    Dr. Schuler, I want to ask about the foster care 
regulations you raised in your testimony. I know Dr. King said 
the Department has also released guidance on that subject just 
this morning. Could you talk more specifically about the 
current process between school districts and child welfare 
agencies and what impact that the Department's proposal would 
have on you?
    Mr. Schuler. Yes, so thank you for that question. And I 
have not obviously had a chance to see what came out this 
morning, but right now what happens is we sit down with the 
child welfare agency and we engage in a conversation about how 
can we best serve the needs of that child.
    The concern with this regulation is it really precludes the 
child welfare agencies from being compelled to participate in 
that conversation because at the end of the day, if they do not 
support, we are going to have to come up with the money. And 
did I think back to my first superintendents outside of Madison 
and I had a student homeless under McKinney-Vento, very 
appropriate, we had to provide transportation.
    I was in a very, very small district outside of Madison. 
The student's home district was Milwaukee.
    I paid every day for students to be transported, over an 
hour and 15 minutes one way, back and forth. And in that 
district where I had 80 teachers at the end of the year, that 
total cost was over a teacher. And so I am very concerned about 
the impact that this proposed regulation could have, especially 
on brothers and sisters, colleagues of ours, and smaller rural 
districts.
    Ms. Foxx. Now, thank you very much for that response.
    Dr. Pruitt, in your written testimony, you talked about the 
restriction the Department was proposing to place on State 
flexibility to define ``consistently underperforming''. I think 
it is pretty clear you have been talking about this already in 
the State of Kentucky, but would you expand on that just a 
little bit?
    Mr. Schuler. Absolutely. As some of my colleagues here have 
even already mentioned, the fact that we have been so focused 
on math and reading for such a long time and not to say that we 
still should be, but at the same time there are other factors 
that are equally as important.
    For me personally, and I think we are hearing this more and 
more in our State, it is the issue of opportunity. So for us, 
when we look at our persistently low-scoring schools, yes, we 
need to look at the math and reading scores, but we also need 
to see what they are offering. The days of offering algebra I, 
algebra I lite, and algebra I low carb need to end.
    We need to actually start guaranteeing every kid is getting 
the education they need and that every kid is actually getting 
a level of expectation that will only serve to help them be 
successful.
    So for us, I want us to be able to really have an open 
playbook where we can say, you know, your kids are doing 
horribly in achievement, but I think we are going to find some 
that are doing decent in achievement, but they are doing 
horrible in what they are offering, especially our underserved 
populations. So I want to have more of that latitude that we 
can really take a good hard look at that school behavior that I 
mentioned earlier and guarantee that every kid is getting the 
offering of high expectations and education that they deserve.
    Ms. Foxx. Thank you very much. For anybody who is taught, 
we all know that it is so important to teach at the level that 
the students are able to perform or at least, I mean, that is 
what we understand.
    And Ms. Harrelson, I want to make a particular thank you to 
you for being a math teacher. Every time I meet great math 
teachers, I say you are worth your weight in gold. We need a 
lot more of you in the schools, so thank you for doing that as 
well as having such a well-rounded perspective. I yield back.
    Mr. Rokita. I thank the gentlelady and associate with her 
remarks. Ms. Bonamici, you are recognized for 5 minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you to all of the panelists. I want to align myself with Dr. 
Foxx' comments about your commitment and I can sense that as 
well. Your commitment to education and your commitment to 
making certain that the Every Student Succeeds Act is 
implemented in a way that does provide that opportunity to all 
of our students.
    I am not an educator, but I spent 16 years as a very 
involved public school parent. It got to the point where my 
kids said, Mom, do you always have to be at school? But I had 
the opportunity to spend a lot of time volunteering and then 
served on our State legislature on the Education Committee and 
then came here to Congress where I find myself still going back 
to school on a regular basis and visiting and talking to 
students and teachers.
    And Ms. Harrelson, in your testimony you talk about 
providing relief from extensive time focused on standardized 
testing and use of assessment to guide meaningful instruction. 
I cannot tell you how many times I heard that over the years 
since No Child Left Behind passed and that focus on testing. 
But the high stakes associated with the testing were what I saw 
as incredibly problematic and I share in your hope that the new 
education law will spur better use of assessments, fewer and 
better assessments. I worked very hard to get a provision in 
the law to allow states and districts to eliminate duplicative 
tests and give educators more time to plan and design 
instruction based on data from high-quality and timely 
assessments.
    So, Ms. Harrelson, can you discuss how the Department and 
State leaders and local school districts can work together to 
make sure that assessments do provide useful information to 
teachers and families, including the statewide assessments that 
were authorized in the legislation by partisan members of 
Congress? And then I am going to ask Ms. Hall to respond to 
that as well.
    Ms. Harrelson. Okay, so I have had the privilege of working 
on some of our former assessments and I do think we started out 
with the idea of making sure we really have educators involved 
in these conversations. And this goes at the local, the State 
and the Federal level, so I think it is really important that 
we continue to really look at how we are developing our 
assessments because it is really educator voice that really 
narrows kind of what this actually looks like in the classroom 
and the type of information we would want back to be looking at 
how we are doing.
    Ms. Bonamici. Thank you. My State of Oregon is a pretty 
early adopter of adaptive testing in America. There is a 
tremendous potential there.
    Ms. Hall, you want to discuss that as well? Because I share 
your perspective, it is important to assess students. We just 
need to make sure we are doing the right thing with those 
assessments.
    Ms. Hall. Absolutely, and I will start by saying we 
appreciate your leadership on efforts to support States and to 
confirm States to audit assessments and eliminate low-quality, 
duplicative, unaligned assessments. We know that there are too 
many assessments in some of our districts right now and that is 
a waste of money and, worse, it is a waste of time both for 
teachers and for students, and we appreciate your support on 
that.
    That said, it is important not to go too far, right? We do 
need that consistent measure from an assessment that is aligned 
with State standards to be able to tell educators, tell 
parents, to tell policymakers how every student is doing 
relative to State-set standards and that allows to identify 
both of those students, those schools, those districts that are 
struggling to target resources and support to those areas. It 
also allows to identify consistently students, schools, 
districts that are doing an exceptional job, particularly with 
low-income students, students of color, English learners, and 
students with disabilities.
    Those are areas that we both need to celebrate and we need 
to learn from because they are getting the kinds of results of 
all students through high levels that is the goal of all of our 
work here.
    Ms. Bonamici. I do not mean to interrupt here. I want to 
get another quick question in. Dr. Pruitt, I want to talk about 
the alternative diploma for students with the most significant 
cognitive disabilities. The alternative diploma described in 
ESSA has some very specific requirements.
    Our intention is not to pigeonhole students into 
alternative diplomas, but to provide a pathway to meaningful 
diplomas. So how does your State plan to develop a high-quality 
pathway for the students with the most significant cognitive 
disabilities and will you be working to prevent this pathway 
from becoming a loophole that prohibits students with 
disabilities from achieving a regular diploma?
    Mr. Pruitt. Yeah, absolutely. We have to protect our 
students that are most vulnerable, but we also need our 
diplomas to mean something.
    I do not want to ever have a child walk a stage in Kentucky 
and get a diploma that is not even worth the paper it is 
printed on, so we are going to work really hard with our 
special ed community, our exceptional children community, our 
civilized community to put some pretty hard places in there to 
say this is exactly what we are expecting with these diplomas.
    We will work really closely with our districts, but we are 
going to do our level best to ensure that nobody can game the 
system in such a way that the adult gets the benefit when the 
student does not.
    Ms. Bonamici. Thank you. My time is expired, but I am going 
to follow up with Dr. Schuler in writing about the 
transportation of foster students.
    Mr. Rokita. Mr. Guthrie is recognized for 5 minutes.
    Mr. Guthrie. Thank you, Mr. Chairman, I appreciate it, and 
thank you all for being here. First of all, let me point out 
that when we are talking about and discussing this, the three 
people that have concerns with the rule are practitioners and 
public education.
    They are not a think tank, they are not policy in the high-
level policy. People who want children to learn, they want to 
make the public school system learn. And we can talk about 
other stuff later, but public schools, investment in the public 
school system, and those are where the concerns are coming 
from. So I just wanted to point that out.
    And like the N equals 30 discussion where the Secretary 
said if we cannot accomplish all these things the law requires 
when the law allows you to set your own number, but if we do 
not send it from Washington, they will not be able to comply 
with everything else, and it assumes you guys do not know what 
you are doing and that is really frustrating because it assumes 
that a few smart people in a room in Washington, D.C., figured 
it out and it works for everybody.
    The next example is trying to find the bottom 5 percent. 
The Secretary said you could not do it without a summative 
rating. That is what he said earlier and you are saying I have 
got committees of people across our great Commonwealth trying 
to figure out how to set up a rating system that gives you what 
you need according to the law, but also gives you what you need 
to make sure that kids learn better. And I think that is the 
beauty of our country and what you guys are doing is taking 
your ideas and bringing them up. And that is exactly what we 
tried to do in a bipartisan way, and my friend just said that 
she fought for certain parts to be in there.
    This was really a collaborative effort and we are afraid 
that the rules are coming down and taking away what we wanted 
to have is you guys to have your input in. So one thing that 
kind of struck because you kind of answered some of my 
questions I was going to ask is that you said that under the 
old system and new system, because of the year, you had one 
that was top 5 percent and in the new system it would say 
bottom 5 percent or how does that work--I mean how do two 
systems generate such different results? What are the details 
of that?
    Mr. Pruitt. Well, in the old system actually they were in 
the priority, they were in the bottom 5. And so because of the 
exit criteria, they had to stay in that going into the new 
system, so those two systems overlapped in such a way that they 
did not allow a reset button or a refresh button if you will. 
So under the new system where there was a much greater view of 
quality of the programs and not just the achievement, but 
actually the quality of the programs, what we found was that 
these schools are actually some of our best performers when you 
look at them in a broader range of criteria, so as a result 
they are stuck.
    Now, they will probably come off of the priority list in 
the next year, but because they were stuck there to start 
within the old system, it really just created a sense of 
distrust in that system by the fact that when you look at any 
list from Kentucky, you see these schools as distinguished and 
as priority.
    Mr. Guthrie. When you went across our Commonwealth and had 
town hall meetings, tell me about that process, and people 
showed up for those town hall meetings, practitioners, parents 
concerned. It was really well attended and well promoted and 
you did a really good job with it, so talk about that process. 
And then what happens when you have a system that the people 
just do not trust?
    Mr. Pruitt. Sure. So we decided early that the thing that 
we had to do was be out in the field. If we really wanted to 
develop a system that reflected the values of Kentuckians, I 
need to go listen to Kentuckians. I cannot make good decisions 
sitting in Frankfurt. It is one of the reasons that I think it 
is important that States have the authority to do this because 
you cannot make those decisions in Washington. So we had 11 
town halls and all of our town halls, we never had less than 
about 200 and we had over 300 in several cases, so we had well 
over 3,000 people that showed up to these. We had parents, 
teachers, superintendents, local board members, legislators, 
community members, civil rights members that came and told us 
what they valued in the education system, so we took that.
    We videoed each one, we took notes on each one, we have 
posted those up for everybody to be able to see.
    Mr. Guthrie. So what did you learn> What have you learned 
from that you have implemented or tried to bring in to--
    Mr. Pruitt. We learned that Kentuckians want a simple 
system that makes clear what performance is and not the 
appearance of performance. We learned that the education of the 
whole child must be critical and not just focused on math and 
reading.
    We learned that we have got to cut down on competition 
between our districts and embraced the idea of our children our 
Commonwealth so that we actually perpetuate a system where the 
districts are willing to work together to ensure kids get what 
they need as opposed to I have to better than you for me to get 
my better writing.
    Mr. Guthrie. And like I said, when you have all these town 
halls of people out there, I may think I--personally I say how 
can you rate a school if you do not have a summative rating? 
But you may come with ideas and say, wow, I never thought of 
that. And that is the beauty of what this law is trying to do. 
So we have people who really care about what they are doing, 
passionately about what they are doing, and trying to be 
innovative and it helps everybody.
    Mr. Chairman, I just ran out of time. I yield back.
    Mr. Rokita. I thank the gentleman. The gentleman's time has 
expired. Mr. Allen, you are recognized for 5 minutes.
    Mr. Allen. Thank you, Mr. Chairman. And Dr. Pruitt, I am 
fascinated by your--I am only reading your testimony, but you 
seem to be ahead of the curve as far as what I understand. A 
lot of States have been unable to address how we implement this 
new law.
    One of the things that I was interested in reading, the 
testimony was how you had engaged in business community. What I 
have seen, the business community obviously benefits from an 
educated society and, of course, business communities make 
their decisions where they locate based on a skilled workforce, 
an educated workforce.
    So, in fact, in several areas in my district, people ask 
me, so how do we recruit industry? And I said, well, we have 
got to have an educated and skilled workforce. Well, how do we 
do that?
    It is a challenge and as far as your experience in the 
business community, what have you seen and how is your business 
community address this incredible need to get folks back to 
work in this country?
    Mr. Pruitt. Great question. Workforce is inextricably 
linked to education, and so I think we are very lucky in our 
State that we have a governor who, in our legislature, who is 
very focused with the workforce and that is an area of mind 
that I have a particular interest in as well.
    One of the things we like about the regs is that they do 
give career and technical education. It is just we are actually 
recognizing it as a major portion of our students' educational 
experience. I think we are recognizing that simply graduating 
from high school is not enough. There should not be a terminal 
degree or diploma.
    We actually need to be training students to be able to go--
whether they go into university or 2-year technical college or 
directly into the career workforce, we have to provide all 
those opportunities laid out for students and do a good job 
counseling them.
    We have had a great relationship with our cabinet workforce 
and education in that we are working with our Kentucky 
Workforce Innovation Board to actually have the business 
community tell us so that we can actually develop pathways for 
specific jobs that are needed in the different regions of 
Kentucky, So as we work with our KWIB, we are actually asking 
now, which of these pathways are important, so that we can 
attract better business to our communities. Because we actually 
have a workforce that is able to meet the needs because we are 
not just randomly giving career tech credit, we are actually 
focused on getting the credit that is necessary to be able to 
fill the job needs.
    Mr. Allen. I congratulate you on your work. Dr. Schuler, in 
traveling throughout my district which you are close to the 
kitchen in your district, in your area, and one of the things--
and, of course, Dr. Pruitt mentioned in his testimony educating 
the whole child, and I was shocked in asking questions. I said 
I always ask what is your biggest challenge and everywhere I 
went, they talked about the emotional health of these young 
people. And, of course, we are talking about how do you educate 
the entire person?
    Do you care to comment on any issues you are having and 
maybe how you are addressing that?
    Mr. Schuler. Well, we just engage in our district and the 
entire community conversation on that exact topic. In talking 
about what does make sense, how are we ensuring the emotional, 
mental health of our kids and are we putting too much stress 
and pressure on them? And it has been an awesome conversation, 
so starting in two years, we are going to start our high 
schools later in the day based on the research.
    We have found a way to compact the day, shortening the 
lunch periods, so that kids are not still there late at night. 
We also put parameters and limits on how long practices and 
activities can last, and we are providing some opportunities 
during the year where we are asking our staff and our students 
not to do work.
    Four weekends during the year we say go be a kid. Staff, 
focus on your family. Because we need people to step away a 
little bit so that they come back and completely reengage. And 
that has been--I am really excited about that, to track that 
and see if that has an impact.
    But we have to do something to ensure that we are providing 
for that whole child and that is what has been so frustrating, 
I think, the last couple of years and at least why a couple of 
us are up here today concerning--none of that conversation is 
about the score. None of this stuff that Dr. Pruitt is doing is 
talking about a score. We have to provide access and 
opportunities to rebuild our communities.
    Mr. Rokita. The gentleman's time is expired. The gentleman 
from Wisconsin, Mr. Grothman, is recognized for 5 minutes.
    Mr. Grothman. Thanks much. The first one is for any one of 
you, so we will see who talks first. I do not know if you were 
here and happened to hear Secretary King's testimony but I 
wonder if any of you, and you can start with Dr. Pruitt and 
work our way across the table, if there is anything he said 
that you would like to respond to?
    Mr. Pruitt. I think, I mentioned this earlier, I think some 
of his interpretations of what are in the regs are different 
than our interpretations; ``ours'' being Kentuckians. I really 
do not think that he sees the timeline issue the same way we 
do. Having the conflation between 2016-2017 identification and 
2017-2018, he mentioned that 2017-2018 was a planning year, 
which was new to me. I had not heard that before. My 
understanding was that 2017-2018 was the year that you started.
    If it is a plan year, then I think maybe we can have a 
little bit more time to actually engage more stakeholders and 
build a better system, but maybe I missed that part. But for 
me, that was a bit of news, so maybe I have to go back and 
reread, but the way I understand it is actually they have 
accelerated it. And in my opinion, the current regs would 
actually cause the current system to actually stay in place 
because it limits my ability to be innovative. It limits my 
ability to be able to do something special.
    Mr. Grothman. Okay.
    Ms. Harrelson. Okay, I would just like to emphasize again 
the importance of teacher voice. And, you know, as you probably 
read in my testimony, I do work in some of our lowest 
performing schools in Colorado, and with teachers on the ground 
floor daily and what we would like to see is allowing our 
teachers to elevate their voice and what to do to actually 
improve outcomes for our students in these conditions. So once 
again, teacher voice. It is really hard for someone up here in 
D.C. to start dictating what we should be doing in our low-
performing schools. It is really hard.. Thanks.
    Ms. Hall. I think we heard the Secretary talk many times 
about the importance of stakeholder engagement and getting 
feedback through this entire implementation process, and I 
believe that there are many instances where the Department has 
made good on that and is continuing to make good on that.
    We also heard the Secretary talk about putting guardrails 
in place, but still allowing State and local decisions in key 
places and I believe that the regulatory kind of proposal in 
many instances allows for that.
    One of the examples that he talked about was identifying 
schools that are consistently underperforming based on State-
set goals, not federally prescribed goals, but those that are 
based on an analysis of State data. We really appreciated that.
    Mr. Schuler. Okay, this is the first time in 15 years that 
we have the opportunity as people in the field and in the 
States to develop some innovative creative ways to address the 
goals of ESSA. And I am super concerned about the tight 
timelines, almost ending up--not giving us that time to go out 
and collectively engage stakeholders in authentic ways and 
plant for that implementation.
    We want to transform and lead, and we can do that. We just 
need time to engage in that process. So I am very concerned 
that a tight timeline is going to result in a continuation of 
what has been and that is not what we want.
    Mr. Grothman. Okay, I have a question for Ms. Harrelson 
because I always liked math and I recently had a discussion 
with somebody who is very involved in the system. He has been a 
teacher. I think he is a tutor, been involved for many years, 
and feels how much worse the students are doing than in the 
past. Kind of interesting that you thought we would get more 
input from the teachers.
    When I was in the State legislature, he used to go, and I 
still think it is right, that they would bar the use of 
calculators on standardized tests. Part of it, I felt, was one 
of the reasons why our children were having such a hard problem 
with math and they were not developing the ability to play with 
numbers in their head.
    I wondered what your comments were on that, whether you 
felt like my friends, that was one of the reasons why our kids 
are underperforming in math. And while I do not like the 
Federal Government imposing anything, something at least on the 
State level, we ought to take those calculators away and force 
those kids to play with numbers in their mind. In 15 seconds, 
please.
    Ms. Harrelson. All right,. I support a balanced approach 
when it comes to calculators. It depends on what you are doing. 
And so I do think that it is important for kids to be flexible 
with numbers, but there is also some problem-solving that is at 
a higher level that we might want to incorporate the use of a 
calculator to reach some more complex problem-solving 
situations.
    Mr. Rokita. The time is expired. Mr. Scott, you are 
recognized for a closing.
    Mr. Scott. Thank you, Mr. Chairman, and thank you for 
convening the hearing. A lot of issues were brought forward, 
one of which was the idea of supplement not supplant. As I 
indicated, since the Brown decision, there is a constitutional 
responsibility to provide an equal educational opportunity, and 
supplement not supplant should be supplemental over and above, 
not an unconstitutionally underfunded level. But what it should 
have been, at least a bare minimum under the Constitution 
providing equal educational opportunity and then it should be 
supplemental because under the Elementary and Secondary 
Education Act of 1965 we recognized some challenges that occur 
when there is a significant concentration of poverty. So we 
need to make sure that we do not excuse those localities that 
are not funding education up to at least a constitutional 
level.
    There are a lot of other issues that came up, but I think 
the Secretary indicated that we are in the comment period and 
if comments need to be made on regulations, now is the time to 
make those comments known. He also indicated that he is going 
to be seriously considering all of those comments and there is 
no reason to believe that he will not.
    So, Mr. Chairman, thank you for giving me, the witnesses, 
the Secretary, and the panel the opportunity to comment on the 
regulations. We did a lot of work to enact the Every Student 
Succeeds Act. It is a bipartisan effort and we hopefully can 
continue to go forward in a bipartisan manner.
    Mr. Rokita. I thank the gentleman. I thank him for the 
letter and spirit of his comments. We both sat at the final 
negotiating table and the fact of the matter is the law is the 
law and I was very clear on supplement and supplant. And from 
the testimony even yet today, as we have heard for several 
years now, to do so otherwise than what is in the current law 
is to have a high likelihood of hurting those very kids that we 
are supposed to be helping.
    So with that, I want to thank each one of you for your 
leadership, both locally and nationally. I am inspired and I am 
motivated as well as the members here are by the words we have 
heard today from each of you and the leadership that you 
provide.
    We do hope and expect that leadership will continue because 
it is going to be needed now in the implementation as well as 
the oversight phases of what is a very promising law, as Dr. 
Roe said during the first panel, that is actually inspiring 
teachers at the local level to continue teaching and maybe even 
come back to the profession, and what a great sign that is and 
will continue to be.
    I agree also with Mr. Scott about the need to engage 
stakeholders as you said. Dr. Pruitt and I think you all 
mentioned the comment period is live. The deadline is August 
1st.
    For those of you at the witness table who are represented 
by associations, those associations will definitely be making 
comments for sure, but that does not prohibit any of you as 
individuals or your counterparts or peers as individuals from 
making comments as well.
    Ms. Hall is also correct that we have all heard how often 
Dr. King just today used the word ``feedback'' and we should 
make sure there is no excuse on the table for him, for us, or 
for anybody in this process to not have that feedback. Ad so 
again, August 1st being the deadline, the time is now. And as 
you are all leaders, I hope you and your counterparts and peers 
will all step up.
    With that, seeing no further business before the committee, 
this committee stands adjourned.
  
  
  
  [Additional submissions by Mr. Scott follow:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        
    [Questions submitted for the record and their responses 
follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    [Responses to questions submitted for the record follow:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    
    
    [Whereupon, at 12:04 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
